App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
No. 18-9587
(FCC No. FCC 17-162)
v.
(Federal
FEDERAL COMMUNICATIONS
Communications
COMMISSION; UNITED
Commission)
STATES OF AMERICA,
Petitioner,

Respondents.
-------------------------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------------------------

(Filed Mar. 12, 2019)
Before HOLMES, MATHESON, and BACHARACH,
Circuit Judges.
-------------------------------------------------------------------------------------------------------------------------------

This is the second petition for review Blanca Telephone Company has filed seeking review of orders the
Federal Communications Commission issued regarding Blanca’s participation in a federal subsidy program
for telecommunications providers in high-cost rural
and insular areas. [See Petition at 1 (“[t]he subject
matter of the instant petition for review was previously before this court in No. 18-950[2]. . . . ”); Blanca’s

App. 2
Response to Show Cause Order at 4, n.2 (acknowledging typographical error in the earlier case number
noted in its petition)].
The court dismissed the first petition for lack of a
final agency order and thus of jurisdiction. See Blanca
Tel. Co. v. FCC, No. 18-9502 (10th Cir. Oct. 25, 2018).
The court likewise issued a show cause order regarding the existence of its jurisdiction over this second petition for review, and the matter is now before the court
on the parties’ briefing regarding that issue.
The FCC orders at issue require Blanca to repay
subsidies the FCC determined Blanca wrongly received. Specifically, on June 2, 2016, FCC staff sent
Blanca a letter, stating the agency had determined
Blanca improperly received roughly $6.75 million in
FCC subsidies and demanding repayment. Blanca
sought—and, on December 8, 2017, the FCC declined—
further agency review, instead affirming the determination that Blanca must repay the amount the FCC
previously determined Blanca had improperly received. Blanca sought agency reconsideration, but also
filed its first petition for review requesting that this
court review the FCC’s orders. See Blanca Tel. Co. v.
FCC, No. 18-9502.
In Case No. 18-9502, this court: (a) noted that
Blanca’s motion for agency reconsideration remained
pending; (b) held that Blanca’s motion for reconsideration “renders the [June 2, 2016] demand letter and [December 8, 2017] FCC order nonfinal;” and (c) dismissed
Blanca’s petition for lack of a final order and thus of

App. 3
jurisdiction. See Blanca Tel. Co. v. FCC, No. 18-9502
(10th Cir. Oct. 25, 2018). The court also rejected
Blanca’s request that it review two letters from FCC
staff to Blanca because the issuance of the letters neither “determine[d] Blanca’s rights or obligations” nor
constituted agency action “from which legal consequences will flow”, and thus did not constitute agency
action this court had jurisdiction to review. See id.
(quoting Bennett v. Spear, 520 U.S. 154, 178 (1997)).
Blanca petitioned this court for rehearing. The
FCC and the United States (collectively, the “FCC”)
filed an opposition to that petition, and Blanca filed a
reply in support of its petition. The court denied rehearing. Blanca Tel. Co. v. FCC, No. 18-9502 (10th Cir.
Dec. 10, 2018).
Blanca now petitions the court for review of: (1)
the June 2, 2016 demand letter; (2) the FCC’s December 8, 2017 order; and (3) a footnote the FCC included
in its response to Blanca’s petition for rehearing in
Case No. 18-9502, which footnote Blanca contends
“constitutes a final merits denial of Blanca’s December
2017 petition for reconsideration . . . ” [Petition at 8].
As the court stated in its order dismissing Blanca’s
petition in Case No. 18-9502, this court has jurisdiction
to review only “final” FCC orders. See 28 U.S.C.
§§ 2342(1), 2344. An FCC order is “final” when it marks
the end of the FCC’s decision-making process. Bennett
v. Spear, 520 U.S. 154, 177–78 (1997). “The timely filing
of a motion to reconsider renders the underlying order
nonfinal for purposes of judicial review”; thus, “a party

App. 4
who has sought rehearing cannot seek judicial review
until the rehearing has concluded.” Stone v. INS, 514
U.S. 386, 392 (1995).
The footnote Blanca asks this court to construe as
an “order” denying its motion for agency reconsideration follows the FCC’s discussion of 47 U.S.C. § 405(a)’s
bar on judicial review of “questions of fact or law upon
which the Commission . . . has been afforded no opportunity to pass.” [Opp. to Pet. for Reh’g, No. 18-9502 at
13 (filed Nov. 20, 2018)]. The footnote reads, in its entirety, as follows:
Section 405(a) has the effect of precluding judicial review of issues that a party has forfeited because it did not timely raise them
prior to the Commission’s initial decision, unless the party petitions for reconsideration
and the Commission agrees to consider them.
Cf. 47 C.F.R. §§ 1.106(b)(2), 1.115(g). But in
that situation, the need to file a petition for
reconsideration is a consequence of the party’s
initial forfeiture, not of any inherent statutory
requirement to petition for reconsideration
before proceeding to court.
[Id. at 13 n.4]. Blanca contends the footnote embodies
the FCC’s determination that Blanca “forfeited” its arguments on reconsideration. [Blanca’s Response to
Show Cause Order at 5].
The court does not read the footnote so broadly:
the footnote states only that federal statute and regulation prohibit a party to an agency proceeding from
seeking judicial review on a ground on which it has not

App. 5
afforded the agency an opportunity to rule. See 47
U.S.C. § 405; cf. City of Brookings Mun. Tel. Co. v. FCC,
822 F.2d 1153, 1163 (D.C. Cir. 1987) (construing § 405
to “codify the judicially-created doctrine of exhaustion
of administrative remedies” (internal quotation marks
and citations omitted)); Gerico Inv. Co. v. FCC, 240 F.2d
410, 411 (D.C. Cir. 1957) (“The obvious purpose of section 405 is to afford the Commission an opportunity to
consider and pass upon matters prior to their presentation to the court.”). As this court has previously
stated, “[u]nder 47 U.S.C. § 405(a), when ‘the party
seeking [ ] review . . . relies on questions of fact or law
upon which the Commission . . . has been afforded no
opportunity to pass,’ a petition for reconsideration is a
condition precedent to judicial review.” See Sorenson
Commc’ns, Inc. v. FCC, 567 F.3d 1215, 1227 (10th Cir.
2009) (quoting § 405(a)).
Blanca has filed a motion for agency reconsideration through which: (1) the FCC may consider “questions of fact or law” on which it has not yet been
afforded an “opportunity to pass,” see id.; and (2) the
FCC must determine grounds it acknowledges were
“fully preserved.” [FCC’s Response to Show Cause Order at 7].
Although this court has previously held “[a] communication need not be formal to constitute a final
agency action,” see Tulsa Airports Improvement Trust
v. FAA, 839 F.3d 945, 949 (10th Cir. 2016), the FCC’s
footnote here simply does not address or purport to
deny Blanca’s motion for agency reconsideration. And
even if, as Blanca suggests, the footnote could be read

App. 6
as an agency interpretation of the regulations it cites,
Blanca does not contend that the cited regulations
are ambiguous and thus require this court’s deference
to that “interpretation.” See, e.g., Christopher v. SmithKline Beecham Corp., 567 U.S. 142, 154 (2012) (citing
Auer v. Robbins, 519 U.S. 452, 461-62 (1997) and holding that an agency’s interpretation of its regulations
is entitled to deference unless there exists reason to
suspect the interpretation does not reflect the agency’s
fair and considered judgment on the matter in question and noting such suspicion might exist, if, for
example, the interpretation conflicts with a prior interpretation, it appears the interpretation is nothing
more than a convenient litigating position, or the interpretation appears to be a post hoc rationalization
advanced by an agency seeking to defend past agency
action against attack (citations omitted)).
Undeterred, Blanca argues the court may exercise
jurisdiction in the absence of a final order, pursuant
to either: (1) Leedom v. Kyne, 358 U.S. 184 (1958); or
(2) the All Writs Act, 28 U.S.C. § 1651. [See Blanco’s
[sic] Response to Show Cause Order at 16-21 & n.8;
Blanco’s [sic] Reply at 2-11]. Neither basis supports
this court’s jurisdiction.
In Kyne, the Supreme Court upheld judicial review—despite a statutory provision that precluded
such review—“where the National Labor Relations
Board had acted in excess of its delegated powers and
contrary to a specific prohibition in the [National Labor Relations] Act.” See U.S. Dep’t of Interior v. Fed.

App. 7
Labor Relations Auth., 1 F.3d 1059, 1061 (10th Cir.
1993) (citations and internal quotation marks omitted).
The Kyne exception is one of “very limited scope,”
“to be invoked only in exceptional circumstances.” See
id. To fall within the Kyne exception, it is insufficient
that the agency “may have made an error of fact or
law”; the agency “must have acted without statutory
authority.” Id. at 1062 (citation and internal quotation
marks omitted). Further, the Kyne exception does not
apply where, as here, either the aggrieved party is currently seeking agency review that—if successful—
could provide the requested relief, see, e.g., FarrellCooper Min. Co. v. U.S. Dep’t of Interior, 728 F.3d 1229,
1238 (10th Cir. 2013), or the aggrieved party may seek
judicial review before this court if it remains dissatisfied once the agency order becomes final. See Bd. of
Governors of the Fed. Reserve Sys. v. MCorp Fin., Inc.,
502 U.S. 32, 43-44 (1991).
Blanco’s [sic] invocation of the All Writs Act to confer jurisdiction over its petition is similarly misplaced:
a writ is “not a substitute for an appeal” but is, instead
“a drastic remedy . . . to be invoked only in extraordinary circumstances.” See In re Cooper Tire & Rubber
Co., 568 F.3d 1180, 1186 (10th Cir. 2009) (citation and
internal quotation marks omitted). Accordingly, and
among other things, “the party seeking issuance of the
writ must have no other adequate means to attain the
relief he desires.” Id. at 1187 (citation and internal
quotation marks omitted). Here, however, Blanco’s [sic]
motion for agency reconsideration remains pending,

App. 8
and—failing success at the agency level—Blanco [sic]
may obtain review of the FCC’s orders by filing a
timely petition for review once the orders are final. Accordingly, the All Writs Act does not apply.
In sum, Blanco’s [sic] motion for agency reconsideration remains pending, “render[ing] the underlying
order nonfinal for purposes of judicial review.” See
Stone, 514 U.S. at 392. Accordingly, the court is without
jurisdiction over the petition for review and thus dismisses it.
Entered for the Court
ELISABETH A. SHUMAKER,
Clerk
/s/ Lisa A. Lee
by: Lisa A. Lee
Counsel to the Clerk

App. 9
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
Petitioner,
v.

No. 18-9502

FEDERAL COMMUNICATIONS
COMMISSION et al.,
Respondents.
-------------------------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------------------------

(Filed Dec. 10, 2018)
Before BACHARACH, MURPHY, and MORITZ, Circuit Judges.
-------------------------------------------------------------------------------------------------------------------------------

Petitioner’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular active service. As no member of the panel and
no judge in regular active service on the court

App. 10
requested that the court be polled, that petition is also
denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

App. 11
No. 18-9502
IN THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

BLANCA TELEPHONE COMPANY,
Petitioner,
v.
FEDERAL COMMUNICATIONS COMMISSION
and UNITED STATES OF AMERICA,
Respondents.
-------------------------------------------------------------------------------------------------------------------------------

On Petition for Review of an Order of
the Federal Communications Commission
-------------------------------------------------------------------------------------------------------------------------------

RESPONDENTS’ OPPOSITION
TO PETITION FOR REHEARING
-------------------------------------------------------------------------------------------------------------------------------

(Filed Nov. 20, 2018)
Thomas M. Johnson, Jr.
General Counsel
Makan Delrahim
Assistant Attorney
General

David M. Gossett
Deputy General Counsel
Richard K. Welch
Deputy Associate
General Counsel

Andrew C. Finch
Principal Deputy Assistant
Scott M. Noveck
Attorney General
Counsel

App. 12
Robert B. Nicholson
Adam D. Chandler
Attorneys

FEDERAL COMMUNICATIONS
COMMISSION
445 12th Street SW
Washington, DC 20554
(202) 418-1740
fcclitigation@fcc.gov

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave. NW
Washington, DC 20530
*

*

*

[10] Blanca now claims that it may simultaneously seek both agency reconsideration and judicial
review under Farrell-Cooper Mining Co. v. U.S. Department of the Interior, 864 F.3d 1105 (10th Cir. 2017).
Blanca never made this argument or cited FarrellCooper before the panel, so the argument is forfeited.
See, e.g., United States v. Andrus, 499 F.3d 1162, 1163
(10th Cir. 2007) (per curiam); see also Franklin Savs.
Corp. v. United States, 180 F.3d 1124, 1128–29 (10th
Cir. 1999) (holding that particular legal theories of jurisdiction can be waived). In any event, Blanca’s claims
that the panel order conflicts with Farrell-Cooper and
that it would prevail under that decision are both
wrong.
1. The panel’s decision dismissing Blanca’s
premature petition for review is entirely consistent
with Farrell-Cooper. Farrell-Cooper expressly recognized that “if a ‘party elects to seek a rehearing,’ ” then
“the ‘pendency of reconsideration renders the underlying decision not yet final, and . . . a party who has
sought rehearing cannot seek judicial review until the
rehearing has concluded.’ ” 864 F.3d at 1115 (quoting
Stone, 514 U.S. at 392) (alteration by Court). The panel

App. 13
quoted and applied that same rule here. See Panel Order at 3 (also quoting Stone).
To be sure, Farrell-Cooper recognized a narrow exception for situations where, unlike here, a statute or
agency rule mandates that [11] a party pursue further
administrative review even after the agency begins enforcing a decision against that party. 864 F.3d at 1107,
1115–16. In those narrow circumstances, FarrellCooper allows a party to challenge the decision in court
even though it remains under administrative review.
Ibid.; see also id. at 1113 (“[U]nder these circumstances, ‘the initial decision becomes final and the aggrieved party is entitled to judicial review.’ ”). Although
the court “acknowledge[d] that an [administrative] appeal and a federal lawsuit proceeding on parallel
tracks is not ideal and may undermine judicial and administrative efficiency,” id. at 1117, it reasoned that
this narrow exception is necessary because allowing an
agency to “enforce[e] [sic] initial decisions while a mandatory administrative appeal is pending” could otherwise “effectively insulate such decisions from judicial
scrutiny,” id. at 1107.
Farrell-Cooper stressed that this narrow exception
applies only in the unusual situation where a statute
or agency rule mandates that the party continue pursuing administrative review even after the administrative decision has gone into effect. See, e.g., 864 F.3d
at 1107, 1115–16 (distinguishing “mandatory” administrative proceedings from “optional” or “elect[ive]” administrative appeals). By contrast, in situations where

App. 14
“plaintiffs who could have immediately challenged
agency action [12] in federal court instead elect[ ] to
pursue additional administrative remedies,” then “the
doctrine set forth in Stone” precludes judicial review
while the party chooses to remain before the agency.
Id. at 1116.
2. Given the administrative review scheme at
issue here, the panel’s ruling that the Court lacks jurisdiction to review the Order while Blanca pursues
administrative reconsideration fully comports with
Farrell-Cooper. Once the Commission issued its Order
denying Blanca’s application for review of the Demand
Letter and allowing agency staff to begin to collect the
unpaid debt, Blanca was free to petition for judicial review. Nothing in the Communications Act or the Commission’s rules required Blanca to seek administrative
reconsideration.
Blanca nonetheless contends (Reh’g Pet. 3–6) that
reconsideration was mandatory, not elective, by asserting that 47 U.S.C. § 405(a) required it to petition the
Commission for reconsideration here. But the text of
that statute says precisely the opposite: “The filing
of a petition for reconsideration shall not be a condition precedent to judicial review of any [Commission]
order,” except in two specific circumstances not present
here. 47 U.S.C. § 405(a) (emphasis added). The first
exception applies only when the party wishing to challenge an order “was not a party to the [earlier] proceedings,” ibid.; but that is not the case here. [13] And the
second exception applies only when a party wishes to

App. 15
raise “questions of fact or law upon which the Commission * * * has been afforded no opportunity to pass,”
ibid., which covers situations where a party “has no
reason to raise an argument until the FCC issues an
order that makes the issue relevant,” In re Core
Commc’ns, Inc., 455 F.3d 267, 276–77 (D.C. Cir. 2006).
That again is not the case here.4
Also false is Blanca’s claim (Reh’g Pet. 5, 10, 11)
that it was required to petition for reconsideration
to obtain relief from the Commission’s red-light rule.
That rule restricts parties with delinquent debts from
conducting certain business before the Commission, 47
C.F.R. § 1.1910(b)(2)–(3), but it does “not apply if the
applicant has timely filed a challenge through an administrative appeal or a contested judicial proceeding,”
id. § 1.1910(b)(3)(i). By its plain terms, Blanca could
obtain relief by pursuing judicial review; it was not required to remain before the agency.
[14] Nor is Blanca entitled to short-circuit the ordinary review process simply because new subsidy
payments are now being withheld and credited as an
offset against its unpaid debt as directed by the Order.
Cf. Reh’g Pet. 2–3. Agency orders routinely take effect
4

Section 405(a) has the effect of precluding judicial review of
issues that a party has forfeited because it did not timely raise
them prior to the Commission’s initial decision, unless the party
petitions for reconsideration and the Commission agrees to
consider them. Cf. 47 C.F.R. §§ 1.106(b)(2), 1.115(g). But in
that situation, the need to file a petition for reconsideration is
a consequence of the party’s initial forfeiture, not of any inherent
statutory requirement to petition for reconsideration before proceeding to court.

App. 16
while a party continues to pursue judicial review or administrative reconsideration. Cf. 47 C.F.R. § 1.106(n) (a
petition for reconsideration does not suspend the effect
of an order unless the Commission finds good cause for
a stay). If Blanca wishes to pursue interim relief in the
absence of a final Commission order, it must do so under the All Writs Act, 28 U.S.C. § 1651—and indeed
Blanca already has repeatedly sought that relief here,
filing three requests for this Court to stay the Order or
to enjoin the agency from initiating any collection efforts pending further review. But the Court denied
each of those requests because Blanca failed to make
the showings required to obtain that relief,5 and those
rulings are ineligible for en banc review. See 10th Cir.
R. 35.7.
*

*

*

[15] The panel correctly held, consistent with Farrell-Cooper and all other authority, that Blanca’s elective decision to continue litigating before the agency
precludes it from seeking judicial review at this time.
Blanca was alerted to this issue in the FCC’s jurisdictional brief and again in its merits brief, and Blanca
could have acted then to withdraw its petition for reconsideration and to file a new petition for review,
5

See Order, In re Blanca Tel. Co., No. 17-1451 (10th Cir. Dec.
28, 2017) (denying stay); Order, In re Blanca Tel. Co., No. 17-1451
(10th Cir. Dec. 29, 2017) (denying mandamus); Order, In re
Blanca Tel. Co., No. 18-9502 (10th Cir. Apr. 5, 2018) (denying injunction pending review); see also Order, In re Blanca Tel. Co.,
No. 16-1216 (D. C. Cir. Oct. 21, 2016) (denying petition for a writ
of prohibition seeking relief prior to the Order).

App. 17
see Los Angeles SMSA Ltd. P’ship v. FCC, 70 F.3d 1358
(D.C. Cir. 1995) (per curiam)—but Blanca ultimately
“preferred to stay at the agency,” Reh’g Pet. 11. Blanca’s
own actions deprived the Court of jurisdiction here,
and Blanca has identified no basis that would warrant
rehearing of the panel’s decision.

App. 18
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
Petitioner,
v.
FEDERAL COMMUNICATIONS
COMMISSION and UNITED
STATES OF AMERICA,

No. 18-9502
(Case No.
FCC-1:FCC 17-162)

Respondents.
-------------------------------------------------------------------------------------------------------------------------------

ORDER*
-------------------------------------------------------------------------------------------------------------------------------

(Filed Oct. 25, 2018)
Before BACHARACH, MURPHY, and MORITZ, Circuit Judges.
-------------------------------------------------------------------------------------------------------------------------------

This appeal involves our jurisdiction to review orders issued by the Federal Communications Commission.
* The Court has determined that oral argument would not
materially aid our consideration of the jurisdictional issue. See
Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). Thus, we have decided this issue based on the briefs.
This order does not constitute binding precedent except under the doctrines of law of the case, res judicata, and collateral
estoppel. But the order may be cited for its persuasive value under Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 19
Blanca Telephone Company has petitioned us to review.
•

a demand letter from FCC staff to Blanca,
stating that Blanca had erroneously obtained
almost $7 million in federal subsidies and
that Blanca must repay the United States and

•

an FCC order denying Blanca’s application for
review of the demand letter.1

But Blanca has a motion for reconsideration pending before the FCC. Because this motion renders the

1

Along with the demand letter and the FCC order, Blanca
also asks us to review
•
a letter (June 22, 2016) from FCC staff to Blanco [sic],
acknowledging the FCC’s receipt of Blanca’s emergency application for review of the demand letter (June
2, 2016) and
•
a letter (Jan. 10, 2018) from FCC staff to Blanca, notifying Blanca that the FCC would begin collecting the
overpayment.
The issuance of these letters does not constitute reviewable
agency action. To be reviewable, an agency action “must be one
by which ‘rights or obligations have been determined,’ or from
which ‘legal consequences will flow.’ ” Bennett v. Spear, 520 U.S.
154, 178 (1997) (quoting Port of Boston Marine Terminal Ass’n v.
Rederiaktiebolaget Transatlantic, 400 U.S. 62, 71 (1970)).
The letters did not determine Blanca’s rights or obligations,
and no independent legal consequences flowed from the letters.
The letters just communicated to Blanca what had been decided
elsewhere: The first letter informed Blanca that the FCC had received Blanca’s emergency application for review, and the second
letter informed Blanca that the FCC was taking action “as directed” by the FCC’s order denying Blanca’s application for review. Petitioner’s Opening Br., App’x at 37.

App. 20
demand letter and FCC order nonfinal, we lack jurisdiction to consider Blanca’s petition for review.
The dispute stems from Blanca’s participation in
a federal subsidy program that encourages telecommunications providers to provide telephone services in
high-cost rural and insular areas. FCC staff determined that Blanca had improperly received close to
$7 million in subsidies under this program; this determination led the FCC to demand reimbursement from
Blanca. The demand spurred Blanca to seek review
and the FCC declined further review, affirming the
staff ’s determination that Blanca must repay the
amount it had improperly received.
Blanca then moved for the FCC to reconsider its
order, and this motion for reconsideration remains
pending before the FCC. Despite the pendency of this
motion, Blanca has asked us to review the FCC’s underlying order.
We have jurisdiction to review only “final” FCC orders. See 28 U.S.C. §§ 2342(1), 2344. An FCC order is
“final” when the order marks the end of the FCC’s
decision-making process. Bennett v. Spear, 520 U.S.
154, 177–78 (1997). “The timely filing of a motion to
reconsider renders the underlying order nonfinal for
purposes of judicial review”; thus, “a party who has
sought rehearing cannot seek judicial review until the
rehearing has concluded.” Stone v. INS, 514 U.S. 386,
392 (1995).
Blanca has moved for reconsideration of the order
denying its application for review, and the FCC has not

App. 21
yet decided Blanca’s motion. As a result, we lack jurisdiction to consider Blanca’s petition for review of the
demand letter and FCC order.
*

*

*

Because we lack jurisdiction to consider Blanca’s
petition for review, we dismiss the petition.
Entered for the Court
Robert E. Bacharach
Circuit Judge

App. 22
[SEAL]
Federal Communications Commission
Washington, D.C. 20554
January 10, 2018
By U.S. Postal service
And E-Mail to alanwehe@fone.net
alanwehe@GoJade.Org
Mr. Alan Wehe
General Manager
Blanca Telephone Company
129 Santa Fe Ave.
Alamosa, CO 81101
Re: The Blanca Telephone Company (“Blanca”): Offset
Notification
Dear Sir,
As you are aware, on December 8, 2017, the Federal
Communications Commission (“Commission”) released
a Memorandum Opinion and Order, and Order on Reconsideration, relating to Blanca under number FCC
17-162 (“Order”).1 The Order affirmed the conclusion
and directive of the Commission’s Office of Managing
Director that Blanca owes and must repay the Universal Service Fund $6,748,280 (the “Debt”), the amount
of universal service support Blanca received to which
1

In the Matter of Blanca Telephone Company Seeking Relief
from the June 22, 2016 Letter Issued by the Office of the Managing
Director Demanding Repayment of a Universal Service Fund Debt
Pursuant to the Debt Collection Improvement Act, CC Docket No.
96-45, Memorandum Opinion and Order and Order on Reconsideration, (rel. December 8, 2017).

App. 23
it was not entitled. The purpose of this letter is to advise you that, as directed by the Commission in the Order, we will pursue collection of this amount, inter alia,
by offset/recoupment of amounts otherwise payable to
you by the Universal Service Fund.
Accordingly, as from the date of the Order, December 8,
2017, Blanca’s monthly support from the Universal
Service Fund will be offset/recouped against the Debt,
until the Debt is satisfied or until you have made acceptable arrangements for its satisfaction. In this regard, we reiterate our willingness to continue the
settlement discussions that were originated with your
attorney, Mr. Tegtmeier, and the Department of Justice.
If you have any questions, your attorney may contact
Neil Dellar on (202) 418-8214.
Very truly yours,
/s/ Mark Stephens
Mark Stephens
Managing Director
Copies:
Michele Ellison – Deputy GC
Mike Pond – USAC

App. 24
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

In re: BLANCA
TELEPHONE COMPANY,
Petitioner.

No. 17-1451
(No. FCC 17-162)

-------------------------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------------------------

(Filed Dec. 29, 2017)
Before HARTZ, PHILLIPS, and MORITZ, Circuit
Judges.
-------------------------------------------------------------------------------------------------------------------------------

Blanca Telephone Company filed a petition for
writ of mandamus, asking this court to intervene in a
proceeding before the FCC. It also filed an emergency
motion for stay of an FCC order pending a ruling on
the mandamus petition; we denied the emergency stay
motion by order dated December 28, 2017. We now
deny mandamus relief.
Mandamus is a drastic remedy that should be
invoked only in extraordinary circumstances. In re
Cooper Tire & Rubber Co., 568 F.3d 1180, 1186 (10th
Cir. 2009). And “[a]lthough a simple showing of error
may suffice to obtain reversal on direct appeal, a
greater showing must be made to obtain a writ of mandamus.” Id. (internal quotation marks omitted). Before this court grants this drastic remedy, we must be

App. 25
satisfied, at a minimum, that there is no adequate alternative means for the relief Blanca seeks, that its
right to mandamus relief is clear and indisputable, and
that issuance of the writ is appropriate. Id. at 1187.
After reviewing all the materials, we determine that
Blanca has not met these requirements. Accordingly,
the petition for writ of mandamus is denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

App. 26
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

In re: BLANCA
TELEPHONE COMPANY,
Petitioner.

No. 17-1451
(No. FCC 17-162)

-------------------------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------------------------

(Filed Dec. 28, 2017)
Before HARTZ, PHILLIPS, and MORITZ, Circuit
Judges.
-------------------------------------------------------------------------------------------------------------------------------

Blanca Telephone Company filed a petition for
writ of mandamus, asking this court to intervene in a
proceeding before the FCC. It also filed an emergency
motion for stay of an FCC order pending a ruling on
the mandamus petition, as well as two motions to supplement its filings. The FCC responded to the stay motion, and Blanca replied.
Because petitioner has not made showings sufficient to obtain a stay pending a ruling on the mandamus petition, we deny the stay motion. See Warner
v. Gross, 776 F.3d 721, 728 (10th Cir. 2015) (identifying stay requirements). The emergency motion for
stay is denied, the motions to supplement are granted,

App. 27
and the mandamus petition remains under consideration.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

App. 28
Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of
Blanca Telephone Company
Seeking Relief from the June
22 [sic], 2016 Letter Issued by
the Office of the Managing Director Demanding Repayment
of a Universal Service Fund
Debt Pursuant to the Debt
Collection Improvement Act

)
) CC Docket No. 96-45
) FCC 17-162
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
AND ORDER ON RECONSIDERATION
Adopted:
December 8, 2017

Released:
December 8, 2017

By the Commission: Commissioners Clyburn and O’Rielly issuing separate statements; Commissioner
Rosenworcel concurring.
I.

INTRODUCTION

1. The high-cost universal service support program (the high-cost program) supports the deployment
of communications networks in high-cost, rural areas.
In 1997, pursuant to section 254 of the Communications Act of 1934, as amended (Act),1 the Colorado Public Utility Commission designated Blanca Telephone
1

47 U.S.C. § 254.

App. 29
Company (Blanca) as an eligible telecommunications
carrier (ETC) in parts of Alamosa and Costilla counties.2 As a result, Blanca became eligible to receive
high-cost support for providing local exchange telephone service in its designated study area.3 As a rateof-return incumbent local exchange carrier (incumbent
LEC), the amount of high-cost support Blanca received
was based on the costs it incurred in providing rateregulated telephone service in its designated study
area. Soon after its designation, Blanca began to offer
commercial mobile radio service (CMRS), a nonregulated service, both within and outside of its study area.
Thereafter, Blanca included the costs of this nonregulated service in the regulated cost accounts it submitted to the National Exchange Carriers Association
(NECA) with respect to its designated study area, thus
inflating the amount of high-cost support Blanca received from the Universal Service Fund (USF). In
2012, NECA discovered Blanca’s improper inclusion in
its rate base of nonregulated costs. NECA directed
Blanca to correct its cost accounting for 2011 and later
2

See Public Utilities Commission of the State of Colorado,
Commission Order Granting Application for Designation as an
Eligible Telecommunications Carrier, Docket No. 97A-506T, Decision No. C97-1389, at 3, para. 2 (Dec. 17, 1997); 47 U.S.C.
§ 254(e).
3
A study area is a geographic segment in which an incumbent local exchange carrier is designated as an ETC. Such segment generally corresponds to the carrier’s “entire service
territory within a state.” See Petitions for Waivers Filed by San
Carlos Apache Telecomms. Util., Inc., & U S W. Commc’ns, Inc.,
AAD 96-52, Memorandum Opinion and Order, 11 FCC Rcd 14591,
14592, para. 4 (Acct. & Aud. Div. 1996).

App. 30
years, and the Commission’s Office of the Managing
Director (OMD) directed Blanca to return $6,748,280
in improperly paid universal service support for 20052010 with respect to Blanca’s designated study area.
2. Blanca now challenges the Commission’s efforts to collect universal service overpayments from
2005 to 2010.4 We affirm OMD’s directive that Blanca
must repay the $6,748,280 in universal service support
to which it was not entitled.
II.

Background
A. Regulatory Framework

3. The high-cost universal service support program is one of four universal service programs created
by the Federal Communications Commission (FCC or
Commission) to fulfill its statutory mandate to help
ensure that consumers have access to modern communications networks at rates that are reasonably
comparable to those in urban areas.5 Under the
4

See Emergency Application for Review, CC Docket No. 9645 (filed June 16, 2016) (Application); Petition for Reconsideration, CC Docket No. 96-45 (filed June 24, 2016) (Petition). The two
petitions raise substantially similar issues, and therefore, in the
interest of expediency, we consider these petitions at the same
time. See Letter from Dana Shaffer, Deputy Managing Director,
FCC Office of Managing Director, to Alan Wehe, General Manager, Blanca Telephone Company (June 2, 2016) (OMD Letter).
5
See 47 U.S.C. § 151 (directing the Commission “to make
available, so far as possible, to all the people of the United States
. . . a rapid, efficient, Nation-wide and world-wide wire and radio
communications service with adequate facilities at reasonable
charges. . . .”).

App. 31
Commission’s rules governing the high-cost program,
incumbent LECs and competitive carriers designated
as ETCs may receive high-cost support, but the legal
and administrative framework for determining how
much support they receive is different.
1. Rate-of-Return High-Cost Support
4. Pursuant to the Commission’s rules in effect
at the time in question, rate-of-return incumbent LECs
designated as ETCs, like Blanca, received high-cost
support based on their embedded costs in providing local exchange service to fixed locations in high-cost areas.6 Such support was intended to ensure the
availability of basic telephone service at reasonable
rates.7 To that end, the Commission’s accounting and
cost allocation rules worked to ensure that incumbent
LECs received a reasonable return on investment in
the deployment and offering of supported services in
high-cost areas within their respective study areas.8
6

Federal-State Joint Board on Universal Service, MultiAssociation Group (MAG) Plan for Regulation of Interstate Services of Non-Price Cap Incumbent Local Exchange Carriers and
Interexchange Carriers, CC Docket Nos. 96-45, 00-256, Report
and Order, 16 FCC Rcd 11244, 11248-49, paras. 8-10 (2001); see
also Special Access for Price Cap Local Exchange Carriers Order,
WC Docket No. 05-25, Report and Order, 27 FCC Rcd 10557,
10562, para. 8 (2012).
7
47 U.S.C. § 254(b)(3); see also, e.g., Connect America Fund
et al., WC Docket Nos. 10-90 et al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd
4554, 4572, para 46 (2011).
8
See 2000 Biennial Regulatory Review – Comprehensive Review of the Accounting Requirements and ARMIS Reporting

App. 32
By limiting the availability of such support to a rateof-return incumbent LEC’s regulated costs within its
study area, the accounting and cost allocation methods
countered the incentive to engage in anticompetitive
practices, such as predatory cross-subsidization, that
might dampen competitive markets for other forms of
communication technology.9 As the Commission has
Requirements for Incumbent Local Exchange Carriers, CC Docket
Nos. 00-199 et al., Report and Order and Further Notice of Proposed Rulemaking, 16 FCC Rcd 19913, 19960-61, paras. 126-27
(2001) (modifying section 32.11 of the Commission’s rules to make
explicit that Part 32 accounting rules applied only to incumbent
LECs, as that term is defined in section 251(h)(1) of the Act, and
any other company deemed dominant); see also Policy and Rules
Concerning Rates for Competitive Common Carrier Services and
Facilities Authorizations Therefor, First Report and Order, 85
FCC 2d 1, 4, para. 15 (1980) (explaining that dominant carriers
have “substantial opportunity and incentive to subsidize the rates
for [their] more competitive services with revenues obtained from
[their] monopoly or near-monopoly services”).
9
See Implementation of the Telecommunications Act of 1996:
Accounting Safeguards Under the Telecommunications Act of
1996, CC Docket No. 96-150, Report and Order, 11 FCC Rcd
17539, 17550-51, para. 25 (1996) (explaining that the safeguards
“were designed to keep incumbent local exchange carriers from
imposing the costs and risks of their competitive ventures on interstate telephone ratepayers, and to ensure that interstate ratepayers share in the economies of scope realized by incumbent
local exchange carriers”); see also Policy & Rules Concerning
Rates for Dominant Carriers, CC Docket No. 87-313, Report and
Order and Second Further Notice of Proposed Rulemaking, 4 FCC
Rcd 2873, 2934, para. 117 (1989) (explaining a “natural tension
. . . exists between competition and rate of return, which surfaces
in the practice of cost shifting, can be avoided through the use of
incentive regulation, which blunts the incentives to shift costs
from more competitive services to less competitive services”);
Verizon Commc’ns, Inc. v. Fed. Commc’ns Comm’n, 535 U.S. 467,
487 (2002) (reciting history of various methods of regulating

App. 33
explained, “[t]hese rules ensure that carriers compete
fairly in nonregulated markets and that regulated
ratepayers do not bear the risks and burdens of the
carriers’ competitive, or nonregulated, ventures.”10
5. Rate-of-return carriers record their investments, expenses, and other financial activity in the
Part 32 uniform system of accounts (USOA), which is
divided into two types of accounts: regulated and
nonregulated accounts.11 Investment and expenses
telecommunications rates and services and the sometimes perverse incentives arising therefrom).
10
Wireline Competition Bureau Biennial Regulatory Review, WC Docket No. 04-179, Staff Report, 20 FCC Rcd 263, 318
(2005); See Sandwich Isles Communications, Inc., WC Docket No.
10-90, Order, 31 FCC Rcd 12999, 13002, para. 8 (2016) (Sandwich
Isles Order).
11
47 CFR § 32.14 (defining “regulated accounts” to include
“the investments, revenues and expenses associated with those
telecommunications products and services to which the tariff filing requirements contained in Title II of the [Act], are applied,
except as may be otherwise provided by the Commission,” and
“those telecommunications products and services to which the
tariff filing requirements of the several state jurisdictions are applied . . . , except where such treatment is proscribed or otherwise
excluded from the requirements pertaining to regulated telecommunications products and services by this Commission”); see also
generally 47 CFR Parts 32 (collecting cost data and separation
into various accounts in accordance with the USOA); 36, Subpart
F (costs and revenues are divided between those that are regulated and nonregulated, interstate and intrastate); and 64, Subpart I (assignment or allocation of costs and revenues associated
with regulated and nonregulated activities); see also Connect
America Fund et al., WC Docket No. 10-90 et al., Report and Order et al., 29 FCC Rcd 7051, 7069, para. 58 (2014) (moving the
rules regarding high-cost loop support and safety net additive
from Part 36, subpart F, to Part 54, subpart M, to consolidate all

App. 34
entirely associated with the provision of a regulated
activity, or that are used for both regulated and nonregulated services, are recorded in the regulated accounts.12 Investment and expenses entirely associated
with the provision of nonregulated activity are assigned to the nonregulated accounts and are not included when determining a carrier’s interstate rate
base or revenue requirement.13 Investment and expenses recorded in the regulated accounts of the USOA
are then subdivided in accordance with procedures
contained in Part 64 of the Commission’s rules.14 Those
rules generally provide that costs shall be directly assigned to either regulated or nonregulated activities
where possible, and common costs associated with both
regulated and nonregulated activities are allocated according to a hierarchy of principles.15 To the extent
costs cannot be allocated based on direct or indirect
cost causation principles, they are allocated based on a
ratio of all expenses directly assigned or attributed to
regulated and nonregulated activities.16 The investment and expenses allocated to nonregulated services
through this process are excluded from the development of the regulated interstate rate base and revenue
high-cost rules in Part 54, and make conforming changes
throughout Part 54) (April 2014 Connect America Report and Order).
12
See 47 CFR § 32.14(c).
13
See id. § 32.14(f ).
14
See id. §§ 64.901-905.
15
See id. § 64.901.
16
See id. § 64.901(b)(3)(iii).

App. 35
requirement. The regulated investment and expenses
remaining after the application of the Part 64 process
are then split between the intrastate and interstate jurisdictions in accordance with the separations process
described in Part 36.17 The regulated interstate investment and expenses flowing from the separations process are the inputs to the development of cost-based
rates and support programs.
2. Identical Support
6. During the relevant time frame, carriers designated by the relevant state or the Commission as
competitive ETCs were eligible to receive the same
per-line amount of high-cost universal service support
as the incumbent LEC serving the same area.18 As a
result, competitive ETCs were not required to conduct
cost studies or to allocate costs between regulated and
nonregulated services.
7. The difference in the support calculation requirements for rate-of-return LECs and competitive
ETCs reflected the different policy goals of the two

17

See id. § 36.1 et seq.
See Connect America Fund et al., WC Docket No. 10-90 et
al., Report and Order and Further Notice of Proposed Rulemaking, 26 FCC Rcd 17663, 17825, para. 498 (2011) (explaining that
identical support provides competitive ETCs the same per-line
amount of high-cost universal service support as the incumbent
LEC serving the same area) (USF/ICC Transformation Order),
pets. for review denied sub nom. In re: FCC 11-161, 753 F.3d 1015
(10th Cir. 2014).
18

App. 36
kinds of support. The rate-of-return support mechanism worked to ensure that the incumbent LEC
deemed to hold market power received a reasonable return on its investment in the provision of telecommunications services to fixed locations in high-cost areas.
Identical support, in contrast, was intended to ensure
that “the support flows” to the carrier “incurring the
economic costs of serving that line,” “in order not to discourage competition in high-cost areas.”19 Accordingly,
the Commission made high-cost support “portable” on
a per-line basis to any competitive ETC providing service through its “owned and constructed facilities.”20

19

Federal-State Joint Board on Universal Service, CC
Docket No. 96-45, Report and Order, 12 FCC Rcd 8776, 8932-33,
paras. 286-287 (1997) (First Report and Order) (subsequent history omitted).
20
Id.; see also Federal-State Joint Board on Universal Service, CC Docket No. 96-45, Ninth Report and Order and Eighteenth Order on Reconsideration, 14 FCC Rcd 20432, 20480, para.
90 (1999) (explaining that the identical support rule is consistent
with principle of competitive neutrality where a competitive ETC
would compete directly against incumbent LECs for existing customers). In May 2008, the Commission adopted an “interim,
emergency cap” on identical support which reduced the total
amount of identical support available to ETCs serving the state
by a fixed percentage on a statewide basis, unless the recipient
demonstrated, on an individual basis, and before the Commission
“that its costs met the support threshold in the same manner as
the [incumbent LEC serving the designated area].” See High-Cost
Universal Service Support; Federal-State Joint Board on Universal Service, WC Docket No. 05-337, CC Docket No. 96-45, Order,
23 FCC Rcd 8834, 8837-50, paras. 6-39 (2008). In 2011, the Commission eliminated identical support. See also USF/ICC Transformation Order 26 FCC Rcd at 17825, para. 498, 17830–31, paras.
502, 513–14.

App. 37
Moreover, because the Commission adopted the identical support mechanism in furtherance of efficient solutions, competitive ETCs could qualify for identical
support, “regardless of the technology used.”21
3. Administration of Support and Collection Efforts
8. Rate-of-return incumbent LECs submit their
cost data to NECA which is a membership organization of incumbent LECs. NECA is responsible for collecting its members’ cost study data and filer
certifications of that data, and any other information
necessary for NECA to calculate the amount of HighCost Loop Support (HCLS) which its members are eligible to receive.22 NECA submits the results of its
21

See First Report and Order. 12 FCC Rcd at 8842, para. 48
(explaining that the newly adopted competitive neutrality principle would “facilitate a market-based process whereby each user
comes to be served by the most efficient technology and carrier”
and prevent disparities in funding that would give an unfair competitive advantage by restricting the entry of potential service
providers); Rural Cellular Ass’n v. Fed. Commc’ns Comm’n, 588
F.3d 1095, 1104-05 (D.C. Cir. 2009) (emphasizing that the competitive neutrality principle “does not require the Commission to
provide the exact same levels of support to all ETCs”).
22
See Connect America Fund et al., WC Docket No. 10-90 et
al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd 4554, 4796, para. 476 (2011) (explaining that NECA collects data necessary for the calculation of
HCLS while USAC administers other aspects of the fund, including identical support); 47 CFR §§ 36.611-613, 54.1305-1306 (detailing incumbent LEC submission of cost data to NECA), 54.1307
(detailing NECA’s submission of cost data to USAC); 54.707(b)
(establishing USAC’s authority obtain all carrier submissions,

App. 38
calculations to the Universal Service Administrative
Company (USAC), which is responsible for day-to-day
administration of the high-cost support program.23 In
addition to the information it receives from NECA,
USAC collects carrier data and information relevant to
the calculation of other forms of support.24
9. By contrast, to initiate the identical support
process, during the period that it was available, a competitive ETC would submit line count data to USAC,
which in turn, would trigger a corresponding obligation from the incumbent LEC serving the designated
area to submit quarterly line count data to USAC to
determine both projected and actual trued-up identical
support for competitive ETCs.25
10. When submitting data to either NECA or
USAC, carriers certify the accuracy of the data reported.26 As administrator of the USF, USAC has the
and underlying information from NECA); see also id. § 69.601 et
seq.
23
See Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal State Board on Universal Service, CC Docket Nos. 97-21 and 96-45, Report and Order
and Second Order on Reconsideration, 12 FCC Rcd 18400, 18412,
para. 18 (1997).
24
See 47 CFR §§ 36.611, 36.612, 54.307, 54.903; High-Cost
Universal Service Support et al., WC Docket No. 05-337 et al., Order, 23 FCC Rcd 8834, 8846, paras. 27-28 (2008).
25
47 CFR §§ 54.307, 54.807, 54.901(b), 54.903(a)(2).
26
See id. § 69.601(c) (requiring certification of the accuracy
of USF data submitted to NECA); id. § 54.904(a) (requiring certification that all interstate common line support receive [sic] “will
be used only for the provision, maintenance, and upgrading of facilities and services for which the support is intended”); id. § 54.314

App. 39
authority and responsibility to audit USF payments.27
Pursuant to a separate statutory authority in the Inspector General Act of 1978, the FCC’s Office of Inspector General (OIG) also initiates investigations of USF
payments to beneficiaries to coordinate prosecutions
for waste, fraud, and abuse.28 The Commission has designated the Managing Director as the agency official
responsible for ensuring “that systems for audit followup and resolution are documented and in place, that
timely responses are made to all audit reports, and
that corrective actions are taken.”29 The Commission
resolves contested audit recommendations and findings, either on appeal from the Wireline Competition

(requiring state commissions (or the rural telephone company itself when not subject to the jurisdiction of the state) to certify that
the support received by a rural telephone company will only be
used for its intended purpose); see also, e.g., Instructions for Completing Connect America Fund Broadband Loop Support, Actual
Cost and Revenue Data, Form 509 (requiring certification of accuracy and compliance with Commission’s cost allocation rules
when submitting data for true up of interstate common line support), at http://www.usac.org/_res/documents/hc/pdf/forms/509i.pdf.
27
47 CFR § 54.707 (endowing USAC with authority to audit
carriers).
28
5 U.S.C. § App. 3 App.; Adair v. Rose Law Firm, 867
F. Supp. 1111, 1116 (D.D.C. 1994) (concluding that, based on the
legislative history of the Inspector General Act of 1978, “Congress
understood the Act to give the Inspector General the authority to
investigate the recipients of federal funds”).
29
See Schools and Libraries Universal Service Support
Mechanism, CC Docket No. 02-6, Fifth Report and Order and Order, 19 FCC Rcd 15808, 15834, para. 76 (2004).

App. 40
Bureau (WCB) or directly, if the challenge raises novel
questions of fact, law, or policy.30
11. The Commission has also long emphasized
its authority and obligation to recover USF sums disbursed contrary to Commission rules.31 Under section
3701 of the Debt Collection Improvement Act (DCIA),
the Commission has authority to determine whether a
30

47 CFR § 54.722(a) (“Requests for review of Administrator
decisions that are submitted to the Federal Communications
Commission shall be considered and acted upon by the Wireline
Competition Bureau; provided, however, that requests for review
that raise novel questions of fact, law or policy shall be considered
by the full Commission.”); 47 U.S.C. § 155(c)(4) (“Any person aggrieved by any such order, decision, report or action [taken on delegated authority] may file an application for review by the
Commission within such time and in such manner as the Commission shall prescribe, and every such application shall be
passed upon by the Commission.”); id. § 405(a) (“After an order,
decision, report, or action has been made or taken in any proceeding by the Commission, or by any designated authority within the
Commission pursuant to a delegation under section 155(c)(1) of
this title, any party thereto, or any other person aggrieved or
whose interests are adversely affected thereby, may petition for
reconsideration only to the authority making or taking the order,
decision, report, or action; and it shall be lawful for such authority, whether it be the Commission or other authority designated
under section 155(c)(1) of this title, in its discretion, to grant such
a reconsideration if sufficient reason therefor be made to appear.”).
31
See, e.g., Comprehensive Review of the Universal Service
Fund Management, Administration, and Oversight, et al., CC
Docket No. 96-45 et al., Report and Order, 22 FCC Rcd 16372,
16386, para. 30 (2007) (Comprehensive Report and Order); see
generally, Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint Board on
Universal Service, CC Docket Nos. 97-21 and 96-45, Order, 15
FCC Rcd 22975 (2000).

App. 41
debt is owed to the Commission.32 The DCIA and the
Federal Claims Collection Standards (FCCS) promulgated by the Department of Treasury and the Department of Justice to implement the DCIA require the
Commission to aggressively collect all debt owed to it.33
The Commission has delegated to the Commission’s
Managing Director and the Managing Director’s designee authority to make administrative determinations pursuant to the DCIA.34
B. The Investigations of Blanca’s Cost Accounting and the OMD Letter
12. Between 2005 until 2013, as a rate-of-return
incumbent LEC, Blanca self-reported what it represented to be the costs and revenues of providing fixed
local exchange service in its study area to NECA and
USAC. NECA and USAC relied upon the accuracy and
completeness of Blanca’s reporting to calculate the
specific disbursements Blanca received over this time
frame.35
13. In 2008, the FCC’s OIG commenced an investigation into Blanca’s receipt of high-cost support beginning with 2004. In 2012, during the pendency of the
32

31 U.S.C. §3701(b); see also 31 CFR §900.2(a) (A debt is “an
amount of money, funds, or property that has been determined by
an agency official to be due to the United States . . . ”); 47 CFR
§1.1901(e).
33
31 U.S.C. §3711(a); 31 CFR § 901.1(a).
34
47 CFR § 0.231(f ).
35
See Application at 24 (acknowledging that Blanca sought
support for mobile services).

App. 42
OIG investigation, and pursuant to its data reconciliation policies, NECA conducted a review of Blanca’s
2011 Cost Study, and concluded that Blanca improperly included costs, loops, and revenues associated with
providing CMRS, which is a non-regulated service, in
its 2011 Cost Study.36 NECA directed Blanca to revise
its 2011 cost studies and all ensuing studies to remove
such costs.37 In response to NECA’s request, Blanca retained a cost consultant to review and revise Blanca’s
submissions because Blanca did not track or allocate
expenses associated with providing local service to customers over its landline and cellular systems or the
36

See id.; see also Letter from Brandon Gardner, Manager,
Member Services, NECA to Alan Wehe, Blanca Telephone Company (Jan. 28, 2013) (NECA True Up Notice) (citing NECA Cost
Issue 4.9).
37
See NECA True Up Notice. NECA did not seek to recover
past high-cost distributions from Blanca for the 2005-2010 period
because NECA’s cost pools operate within a 24-month settlement
window. Under NECA’s policies and procedures, member companies execute an agreement which specifies the existence of a window that allows exchange carriers to update or correct data for up
to 24 months after the data was initially reported. Pool Administration Procedure, § 1.3, at p.1.6 (2013); Universal Service HighCost Filing Deadlines, WC Docket No. 08-71, Order, 30 FCC Rcd
1879, 1882 n.28 (2015) (This 24-month adjustment window is the
product of a contractual agreement between NECA and its member companies and has been in place since NECA began operations in the early 1980s). NECA therefore directed Blanca to
revise and refile its 2011 Cost Study to remove costs and revenues
attributable to its wireless system so that any necessary adjustments could be made within the applicable window. NECA also
informed that any support payments “accepted and processed by
USAC corresponding to data corrections outside of the 24-month
settlement window are the obligation of the company.” Pool Administration Procedure, § 1.3, at p.1-9.

App. 43
expenses associated with providing service to customers of other carriers roaming on Blanca’s cellular system, both inside and outside of Blanca’s study area.38
At no point during this reconciliation process did
Blanca contest NECA’s determination that Blanca’s
wireless offerings should be excluded from the costs
used to calculate Blanca’s high-cost support.
14. Based on its investigation and review of documentation provided by Blanca, OIG concluded that
Blanca had misallocated costs between its CMRS and
its wireline service. And, based on the outcome of its
investigation and NECA’s review, OIG also began
working with USAC to identify USF losses resulting
from Blanca’s misallocation of costs in prior years.
USAC found that, from at least 2005 until 2011, when
NECA directed Blanca to revise its cost allocation
methods to exclude costs associated with the provision
of its wireless service, Blanca had “improperly included costs and facilities attributable to nonregulated
CMRS, as well as wireless loop counts, in its cost studies that served as the basis for filing for USF high-cost
funds.”39 As a result, Blanca received overpayments of
high-cost support during this entire period.
15. As required by section 54.707(c) of the Commission’s rules, USAC provided the Commission
with copies of “Blanca’s books and records obtained
during the OIG investigation and Blanca’s own revision of its cost study and other filings for the post 2011
38
39

See OMD Letter at 2.
OMD Letter at 3.

App. 44
period.”40 Based on its analysis of that information,
OMD determined that Blanca owed the Commission
$6,748,280 in high-cost support overpayments received by Blanca between 2005 and 2010.41
16. On June 2, 2016, OMD issued the OMD Letter in which it informed Blanca that it had violated
Parts 36, 64, and 69 of the Commission’s rules by incorrectly including in its calculation of costs eligible for
high-cost support its costs of providing nonregulated
40

Id. at 7.
OMD, USAC and the OIG used documents prepared by
Blanca’s consultant, Moss Adams LLP, for Blanca’s revised 2011
and its 2012 Cost Studies as a blueprint to determine the excess
of high-cost distributions Blanca received for the 2005-2010 period attributable to Blanca’s wireless system. These documents,
which were obtained by the OIG from Moss Adams LLP in 2014
pursuant to a subpoena, contained factors used for the preparation of the revision of the 2011 Cost Study as well as the 2012
Cost Study Blanca submitted to NECA. These factors specifically
served as the basis for USAC to identify relevant costs which
should have been excluded from Blanca’s cost studies and other
filings establishing Blanca’s entitlement to high-cost funds for
2005-2010. The non-regulated factors used by Blanca for 2011
and 2012 Cost Studies, which were virtually the same, were
adopted by USAC to recalculate Interstate Common Line Support
(ICLS), HCLS, and Safety Net Additive Support (SNA) for 20052010. These factors were also adopted for Local Switching Support (LSS), except that the allocation of costs of the switches used
to provide wireless service, which were responsible for a large portion of the distributions Blanca received, was greater for the 20052010 period. Therefore, the non-regulated factor attributable to
those costs was used, rather than the factor used for the costs in
the 2011 and 2012 Cost Studies. The precise amount of the overages based on Blanca’s own non-regulated factors developed by
its consultant were set out on Attachment A of the OMD Letter.
Id. at 7.
41

App. 45
cellular mobile telephone service,42 and demanded immediate repayment of the $6,748,280 that Blanca had
improperly received.43
17. The OMD Letter informed Blanca that it
could challenge OMD’s findings by providing evidence
that it did not owe all or part of the debt if it did so
within 14 days of the OMD Letter.44 The OMD Letter
also notified Blanca that the Commission might exercise any one or more of the debt collection remedies
available to it pursuant to the DCIA and the Commission’s debt collection rules.45
C. Blanca’s Challenges to the OMD Letter
18. On June 16, 2016, Blanca filed an Emergency
Application for Review of the OMD Letter.46 On June
24, 2016, Blanca filed a Petition for Reconsideration of
the OMD Letter.47 The arguments advanced by Blanca
in the Petition and the Application are substantially
the same. Stripped to their essence, Blanca argues
that: (1) USF support is available for wireless services;48 (2) in areas outside of its rate-of-return study
area, Blanca was entitled to receive identical support
as a competitive ETC and so any USF overpayments
42
43
44
45
46
47
48

OMD Letter at 2.
Id. at 1.
Id. at 8.
Id.
Application.
Petition.
Application 5-6; Petition at 5-7.

App. 46
for misallocating CMRS-related expenses are offset by
the identical support it could have received if correctly
reported;49 (3) recovery against Blanca would be inequitable;50 (4) seeking to recover USF payments in an
“ex parte summary proceeding” violates Blanca’s due
process rights;51 (5) OMD is improperly imposing a forfeiture penalty under section 503 of the Act;52 (6) the
Commission has no authority to act under the DCIA
because it applies only to “executive, judicial, or legislative” agencies and does not apply to “independent
agencies,” such as the Commission;53 and (7) the OMD
Letter is fatally flawed because it does not provide
Blanca with an opportunity for administrative review
prior to a monetary deprivation and denies Blanca the
opportunity to review the Commission’s records pertaining to the debt determination.54
19. Upon receipt of the Application, the Commission informed Blanca that, pending review of its submissions, it would not be subjected to the Commission’s
Red Light process nor would the Commission institute
an offset to recover any of the proposed debt.55

49

Application at 6; Petition at 17.
Application at 23; Petition at 22.
51
Application at 9-10.; Petition at 7-9 & n.4.
52
Application at 15-18; Petition at 3, 14-17.
53
Application at 19-20; Petition at 18-19.
54
Application at 21-23; Petition at 20-21.
55
Letter from Mark Stephens, Acting Managing Director,
OMD, FCC to Timothy E. Welch, Counsel (dated June 22, 2016).
50

App. 47
20. Blanca later filed four separate motions for
leave to supplement its Application and Petition.56 On
December 19, 2016, Blanca filed its First Supplement
claiming that two court decisions involving the question of whether USF debt is federal debt for purposes
of False Claims Act (FCA) prosecutions support its arguments.57 In that supplement Blanca also expresses
concern that that [sic] two newly released Commission
Notices of Apparent Liability for Forfeiture (NALs) announce a new statute of limitations theory under section 503 of the Act, which the Commission could use
against Blanca.58
21. On March 30, 2017, Blanca filed its Second
Supplement, notifying the Commission that Blanca
has discontinued offering CMRS as of March 28,
56

Motion for Leave to Supplement Emergency Application
for Review, CC Docket No. 96-45 (filed Dec. 19, 2016) (First Supplement); Second Motion for Leave to Supplement Emergency Application for Review, CC Docket No. 96-45 (filed Mar. 30, 2017)
(Second Supplement); Third Motion for Leave to Supplement
Emergency Application for Review,, CC Docket No. 96-45 (filed
Apr. 10, 2017) (Third Supplement); Fourth Motion for Leave to
Supplement Emergency Application for Review, CC Docket No.
96-45 (filed July 5, 2017) (Fourth Supplement).
57
Id. at 15-16 (citing Farmers Tel. Co. v FCC, 184 F.3d 1241,
1250 (10th Cir. 1999); US ex rel Shupe v. Cisco Sys., 759 F.3d 379,
377-88 (5th Cir. 2014)).
58
First Supplement at 2, 3-8 (citing Network Services Solutions, LLC, Scott Madison, Notice of Apparent Liability for Forfeiture and Order, 31 FCC Rcd 12238, 12284, para. 144 and n.334
(2016) (Network Services Solutions); BellSouth Telecommunications, LLC d/b/a AT&T Southeast, Notice of Apparent Liability
for Forfeiture, 31 FCC Rcd 8501, 8525, para. 71 & n. 150 (2016)
(BellSouth)).

App. 48
2017.59 Blanca asserts that the disclosure is “factually
useful in the Commission’s consideration of the USF
funding issue current [sic] under review.”60
22. On April 10, 2017, Blanca filed its third supplement raising arguments about the Commission’s
decisions regarding another rate-of-return incumbent
LEC, Sandwich Isles Telephone Company, in the Sandwich Isles Order and the Sandwich Isles NAL, both
adopted in December 2016.61 Blanca also attempts to
factually distinguish its situation from that of Sandwich Isles.62
23. On July 5, 2017, Blanca filed its Fourth Supplement, arguing that a recent Supreme Court decision compels the Commission to treat this recovery
action as a penalty time barred by the one-year statute
of limitations in section 503 of the Act.63 Blanca also
notified the Commission that it has requested that
NECA provide it with copies of all documents that
NECA submitted to OIG in response to the April 20,
2017, OIG subpoena for information relating to the calculation of Blanca’s USF payments between January
59

Second Supplement.
Id. at 1.
61
Third Supplement at 2. See Sandwich Isles Order, 31 FCC
Rcd 12999; Sandwich Isles Communications, Inc., Waimana Enterprises, Inc., Albert S.N. Hee, Notice of Apparent Liability for
Forfeiture and Order, 31 FCC Rcd 12947 (2016) (Sandwich Isles
NAL).
62
Third Supplement at 5-10.
63
See generally, Fourth Supplement (citing Kokesh v. S.E.C.,
137 S. Ct. 1635 (2017)).
60

App. 49
1, 2005, and December 31, 2012, and “copies of any
other subpoenas which the Commission might have
served upon NECA.”64
III. DISCUSSION
24. Between 2005 and 2010, Blanca received
high-cost support intended to partially reimburse
Blanca as a rate-of-return incumbent LEC for the provision of regulated service within high-cost areas of its
designated study area. In seeking high-cost support,
for at least eight years, Blanca ignored Commission orders and NECA guidance making clear that it could
only include regulated costs in its cost studies. During
those years, despite the fact that CMRS is not a regulated service, Blanca reported CMRS-related costs, including costs incurred outside of its study area, as
regulated costs incurred to provide service within the
single study area in Colorado for which it sought highcost support. NECA and USAC relied on Blanca’s cost
studies when calculating Blanca’s eligibility for highcost support, and USAC paid Blanca more USF support with respect to this study area than the amount
to which it was entitled based on such calculations.
25. In defending its actions, Blanca erroneously
asserts that because it used high-cost support to deploy CMRS and because wireless service is a supported
service, Blanca was entitled to the support that it
received. But this argument is inconsistent with the
plain language of Commission rules and orders
64

See Fourth Supplement at 5-6.

App. 50
requiring rate-of-return carriers such as Blanca to separate out their nonregulated costs from the rate base
upon which high-cost support is based, to promote the
competitive and other public interest goals of section
254 of the Act. Blanca also attacks the process used by
OMD to seek repayment of the overpayments made to
Blanca. In so doing, Blanca ignores Commission rules
and precedent as well as the Commission’s obligation
to protect the Universal Service Fund from waste,
fraud and abuse. We thus affirm the factual, legal, and
technical findings in the OMD Letter and direct OMD
to proceed with collection.
A. Consideration of Blanca’s Late-Filed
Supplements
26. As an initial matter, we address Blanca’s motions to accept its four supplements, all filed by Blanca
well after the 30-day deadline for an appeal of the
OMD letter—July 5, 2016.65 The Commission has explained that a strict enforcement of filing deadlines is
“both necessary and desirable” to avert the “grave danger of the staff being overwhelmed by a seemingly
never-ending flow of pleadings.”66 In general, we will
65

Because the 30th day fell on a weekend preceding the 4th
of July, the Application and Petition and any supplements were
due by July 5, 2016. 47 CFR §§ 1.4(b)(5), 1.106(f ), 1.115(d).
66
Pathfinder Communications Corporation, Memorandum
Opinion and Order, 3 FCC Rcd 4146, 4146, para. 5 (1988). The
D.C. Circuit Court of Appeals has also generally discouraged the
Commission from accepting late petitions in the absence of extremely unusual circumstances. Virgin Islands Tel. Corp. v. FCC,
989 F.2d 1231, 1237 (D.C. Cir. 1993); Reuters Ltd. v. FCC, 781

App. 51
deny consideration of late-filed pleadings that raise arguments and facts that could have been presented
within the 30-day deadline.67 We have the discretion,
however, to grant leave to file late pleadings where “equities so require and no party would be prejudiced
thereby.”68
27. We grant Blanca’s motion to accept its latefiled Second and Fourth Supplements. In each, Blanca
has identified new facts and arguments that occurred
after July 5, 2016. In the Second Supplement, Blanca
F.2d 946, 951–52 (D.C. Cir. 1986); cf. Gardner v. FCC, 530 F.2d
1086, 1091–92 & n. 24 (D.C. Cir. 1976).
67
See, e.g., Alpine PCS, Inc., Memorandum Opinion and Order, 25 FCC Rcd 469, 479–80, para. 16 (2010) (dismissing untimely filed supplements that sought to raise new questions of law
not previously presented); see also 21st Century Telesis Joint Venture v. Fed. Commc’ns Comm’n, 318 F.3d 192, 199-200 (D.C. Cir.
2003) (affirming the Commission’s decision not to exercise its discretion to hear late-filed supplements when the petitioner offered
no plausible explanation for why supplemental arguments were
not made in its initial petition); cf. 47 CFR § 1.115(g)(1)-(2) (stating when a petition requesting reconsideration of a denied application for review will be entertained, i.e., the occurrence of new
facts, changed circumstances, or the learning of facts unknown –
notwithstanding the exercise of ordinary diligence – since the last
opportunity to present such matters).
68
Crystal Broadcasting Partners, Memorandum Opinion and
Order, 11 FCC Rcd 4680, 4681 (1996); see also, e.g., Amendment
of Section 73.202(B) Table of Allotments, FM Broadcast Stations
(Genoa, CO), MM Docket No. 01-21; RM-10050, Report and Order,
18 FCC Rcd 1465 n.2 (MB 2003) (granting motions for the acceptance of late-filed pleadings that “facilitate resolution of this
case based upon a full and complete factual record”); cf. 47 CFR
§ 1.115(g)(1) (allowing for reconsideration of the Commission’s denial of an application for review based on events occurring after
last opportunity to present).

App. 52
points to the fact that it ceased offering nonregulated
CMRS in March 2017.69 In the Fourth Supplement,
Blanca points to a 2017 United States Supreme Court
decision that it claims is on point.70 We find the public
interest is served by considering the relevance of these
arguments to the instant action.
28. In contrast, we deny Blanca’s motions to accept its late-filed First and Third Supplements for failing to demonstrate good cause to waive the 30-day
filing window for such filings.71
29. Blanca’s assertion in its First Supplement—
that two NALs and the Commission’s Writ Opposition
filed with the D.C. Circuit constitute changes in the
law or in the Commission’s interpretation of the law—
is specious.72 The Commission’s analysis of the relevant legal issues was based on long-standing precedent and principles that Blanca had ample opportunity
to review and incorporate into its timely filed Application and Petition. For example, the legal position that
the collection of debt is not a forfeiture barred by the
passage of time, as raised in the two NALs cited by
Blanca and issued after the issuance of the OMD
69

See Second Supplement at 1.
See generally, Fourth Supplement (citing Kokesh v. S.E.C.,
137 S. Ct. 1635 (2017)).
71
See 47 CFR § 1.3.
72
See First Supplement at 6-7; see also FCC Opposition to
Writ of Prohibition, United States Court of Appeals for the District of Columbia Circuit, No. 16-1216 (Aug. 31, 2016), available
at https://apps.fcc.gov/edocs_public/attachmatch/DOC-341047A1.
pdf (Writ Opposition).
70

App. 53
Letter, is expressly is [sic] based on long-standing precedent, including 1938 and 1946 decisions by the U.S.
Supreme Court and orders by the Commission and the
WCB released in 2011 and 2014, respectively, establishing that the denial of funding is not a forfeiture action and the statute of limitations in section 503 of the
Act is therefore inapplicable to the recovery of government funds improperly paid.73 Likewise, the applicability of the DCIA to the recovery of federal debts is
supported by precedent almost 30 years old and did not
involve any new interpretation of the relevant law.74
30. Further, we find unpersuasive Blanca’s characterization of a new argument as “non-obvious” to
justify a late filed supplement. The cases Blanca “discovered” were issued by the 10th Circuit in 1999 and
the 5th Circuit in 2014, well in advance of the 30-day

73

See Network Services Solutions, 31 FCC Rcd at 12284,
para. 144 and n.334 (citing Holmberg v. Armbrecht, 327 U.S. 392,
396 (1946); United States v. Wurts, 303 U.S. 414, 415-16 (1938));
Bellsouth, 31 FCC Rcd at 8525, para. 71 & n. 150 (2016) (citing
Review of Decisions of the Universal Service Administrator by Joseph M. Hill Trustee in Bankruptcy for Lakehills Consulting, LP
et al., CC Docket No. 02-6, Order, 26 FCC Rcd 16586, 16600-01,
para. 28 (2011) (Lakehills); Request for Waiver or Review of a Decision of the Universal Service Administrator by Premio Computer, Inc., CC Docket No. 02-6, Order, 29 FCC Rcd 8185, 8186,
para. 6 and n.16 (WCB 2014) (Premio))
74
See, e.g., First Supplement at 13-14 (challenging the Commission’s partial reliance in its Opposition on the Ninth [sic] Seventh Circuit Court’s decision in Commonwealth Edison Co. v.
United States NRC, 830 F.2d 610 (7th Cir. 1987), to support its
contention that “independent” agencies are covered by the DCIA).

App. 54
deadline.75 Both of these cases, as with the instant action, involve USF support.76 We thus find no reasonable basis, and Blanca proffers none, for concluding that
Blanca could not, “through the exercise of ordinary diligence,” have learned of, and timely raised, the relevance of these cases prior to the deadline.77
31. Likewise, and contrary to Blanca’s contentions, Blanca’s arguments in its Third Supplement are
not based on a new interpretation of the law by the
Commission. The legal positions taken by the Commission in the Sandwich Isles NAL were based on
long-standing precedent.78 To the extent Blanca’s arguments are about precedent for forfeiture proceedings,
they are not relevant here, because this is not a

75

See First Supplement at 15-16.
See id.; see also Farmers, 184 F.3d at 1250; Shupe, 759
F.3d at 377-88.
77
In addition to the untimeliness of Blanca’s argument based
on cases under the False Claims Act, and as an alternative and
independent ground, we note that the provisions of the FCA on
which the cases Blanca cites rely are substantially different from
the relevant provisions of the DCIA, see Sandwich Isles Order, 31
FCC Rcd at 13029, para. 95, and that more recent cases interpreting the FCA have held that USF payments are federal monies
under that Act. See U.S.ex rel.Heath v. Wisconsin Bell, Inc., No.
08-cv-0724-LA, Decision and Order, (E.D. Wis., filed July 1, 2015);
U.S, ex rel. Futrell v. E-Rate Program LLC, No .4:14-CV-02063ERW (filed August 23, 2017, E.D. MO).
78
See, e.g., Sandwich Isle Order, 31 FCC Rcd at 13026-27,
para. 92 (finding that Congress has not imposed a statutory limitations period on the collection of debt under section 254 or the
DCIA) (citing Premio, 29 FCC Rcd at 8186, para. 6; Lakehills, 26
FCC Rcd at 16601, para. 28).
76

App. 55
forfeiture proceeding.79 Moreover, the mere fact Blanca
referenced a Public Notice in its original Application
and Petition mentioning the Sandwich Isles proceeding and that the Sandwich Isles proceeding involved a
fact pattern that Blanca claims is like its own does not
justify, in this case, consideration of its late-filed supplement.
32. For these reasons, we find acceptance of the
First and Third Supplements is not in the public interest. Below, we address arguments raised by Blanca in
the Petition, Application and Second and Fourth Supplements.
B. Nonregulated Costs Are Not Eligible
for High-Cost Support Provided to an
Incumbent LEC
33. In order to implement its universal service
obligations, section 254(k) of the Act requires the Commission to “establish any necessary cost allocation
rules, accounting safeguards, and guidelines to ensure
that services included in the definition of universal service bear no more than a reasonable share of the joint
and common costs of facilities used to provide those
services.” Section 254(b)(5) also requires the Commission to implement universal service mechanisms that
are “specific, predictable and sufficient.”80 Parts 36, 64,
79

See Third Supplement at 4 (referencing the Sandwich Isles
proceedings); 5-6 (arguing that Blanca’s misreporting was not a
continuing violation).
80
47 U.S.C. § 254(b)(5).

App. 56
and 69 of the Commission’s rules are designed to ensure discharge of these statutory mandates.
34. We affirm OMD’s determinations that Blanca
included costs associated with the provision of a nonregulated service—both within and outside its study
area—within its cost studies for the Colorado service
area in which it is the incumbent LEC, and in so doing
Blanca violated Parts 36, 64, and 69 of the Commission’s rules.81 We also agree with the findings of OIG,
USAC, and NECA upon which OMD based its conclusion that as a result of treating nonregulated costs as
regulated costs in its cost studies, Blanca received inflated USF disbursements with respect to this study
area that it now must repay.82 In reaching these conclusions, we emphasize that Blanca has conceded that
it offered CMRS services83 and it has not challenged
the accuracy of OMD’s accounting of the aggregate
high-cost support attributable to Blanca’s inclusion of
CMRS-related costs in regulated accounts between
2005 and 2010.84
81

See OMD Letter at 2.
See id.
83
See generally Application (repeatedly referring to its cellular system as “mobile”); see also Third Supplement at 9-10 (distinguishing the obligations for discontinuance of CMRS from
obligations for discontinuance of local exchange service).
84
CMRS is classified as a nonregulated service for accounting and cost allocation purposes, because the Commission has
chosen to forbear from rate regulation of these wireless services.
See Amendment of the Commission’s Rules to Establish Competitive Service Safeguards for Local Exchange Carrier Provision of
Commercial Mobile Radio Services, WT Docket No. 96-162,
82

App. 57
35. Blanca is a rural telephone company designated as an ETC for the provision of tariffed local exchange service in the relevant study area 462182,
which as noted above covers portions of Alamosa and
Costilla counties in Colorado.85 Blanca joined NECA as
a rate-of-return incumbent LEC and was treated for
regulatory purposes as such.86 As a rate-of-return incumbent LEC, Blanca was required by our Part 64
rules to allocate its costs between regulated services
and nonregulated service so that NECA and USAC
could correctly compute their eligibility for HCLS,
Report and Order, 12 FCC Rcd 15668, 15691, para. 33 n.102
(1997); Implementation of the Telecommunications Act of 1996,
CC Docket No. 96-193, Report and Order, 12 FCC Rcd 8071, 8095,
para. 53 (1997); Eligibility for the Specialized Mobile Radio Services and Radio Services in the 220-222 MHz Land Mobile Band
and Use of Radio Dispatch Communications, GN Docket No. 9490, Report and Order, 10 FCC Rcd 6280, 6293-94 & n.77 (1995);
Implementation of Sections 3(n) and 332 of the Communications
Act, Regulatory Treatment of Mobile Services, GN Docket No. 93252, Second Report and Order, 9 FCC Rcd 1411, 1492, para. 218
(1994).
85
See Commission Order Granting Application for Designation as an Eligible Telecommunications Carrier, Public Utilities
Commission of the State of Colorado, Docket No. 97A-506t, Decision No. C97-1389, at 3, para. 2 (adopted December 17, 1997),
available at http://www.dora.state.co.us/puc/docketsdecisions/1997.
htm (limiting the scope of the ETC designation to the Study Area
Code 462182).
86
See, e.g., Letter from Doug Dean, Director, Colorado Public
Utility Commission to Marlene K. Dortch, Secretary, FCC, CC
Docket 96-45, Attach. A (filed Oct. 1, 2016) (listing Blanca as an
incumbent LEC but not as a competitive ETC for purposes of the
ETC’s annual certification of support as required by section
54.314 of the Commission’s rules, 47 CFR § 54.314) (Col. PUC
Oct. 1, 2016 Letter)

App. 58
Safety Net Additive Support (SNA), and Local Switching Support (LSS), but failed to do so.87 Blanca also
violated Part 36 of our rules, which requires rate-ofreturn incumbent LECs to identify the portion of their
regulated expenses attributed to interstate jurisdiction so that USAC may correctly compute their eligibility for Interstate Common Line Support (ICLS).88
Additionally, Blanca violated Part 69 of our rules,
which require rate-of return incumbent LECs to apportion regulated, interstate costs among the interexchange services and rate elements that form the cost
basis for exchange access tariffs, so that NECA may set
“just and reasonable” access rates.89 Consequently,
Blanca’s decision to report CMRS-related costs in regulated accounts with respect to study area 462182
resulted in an erroneous increase in the amount of

87

See 47 CFR §§ 64.901-905; see also id. § 64.901 (codifying
the prohibition in section 254(k) of the Act as it applied to incumbent LECs); Implementation of the Telecommunications Act of
1996: Accounting Safeguards Under the Telecommunications Act
of 1996, CC Docket No. 96-150, Report and Order, 11 FCC Rcd
17539, 17572, para. 50 (1996) (finding that the accounting safeguards adopted are sufficient to implement the prohibition in
254(k) of the Act against using “services that are not competitive
to subsidize services that are subject to competition”).
88
See 47 CFR §§ 36.1-36.741; id. § 54.901 et seq.; USF/ICC
Transformation Order, 26 FCC Rcd at 17761, para. 257 (eliminating LLS effective July 1, 2012, but allowing for limited recovery
of the costs previously covered pursuant to our ICC reform). In
2014, the Commission moved the Part 36 rules at issue to Part
54. See April 2014 Connect America Report and Order, 29 FCC
Rcd at 7069, para. 58.
89
See 47 CFR §§ 69.1 - 69.731; id. § 54.901 et seq.

App. 59
high-cost support paid to Blanca and potentially distorted “just and reasonable” access rates.90
36. Blanca is also wrong when it claims it was
entitled to support for its CMRS offerings as a competitive ETC.91 Blanca does not qualify for identical support in areas where it is an incumbent LEC.92 Blanca’s
ETC designation is limited to a specific geographic
area and does not encompass the offering of a competitive nonregulated service, either inside or outside
Blanca’s designated study area.93 Indeed, the state
commission had no opportunity to evaluate, consistent
with its obligation to make a public interest determination required by section 214(e), the relative burdens
on federal or state support mechanisms of granting
Blanca an ETC designation for its CMRS, including
any conditions that might have been appropriate with
90

See OMD Letter at 2 (explaining that “[t]he inclusion in
cost studies of such cellular investment, expenses, and costs that
were not used and useful to provide regulated telephone service
is prohibited, and resulted in inflated disbursements to Blanca
from ICLS, LSS, [HCLS], and [SNA]”); see also id. at Attach. A
(listing specific disbursements by fund type and year and the differences between the support received and the support to which
Blanca was entitled based on its regulated costs).
91
Application at 6, 8, 18; Petition at 5, 6, 17.
92
47 CFR § 54.5 (defining a “competitive eligible telecommunications carrier” as a carrier that meets the definition of an “eligible telecommunications carrier” below and does not meet the
definition of an “incumbent local exchange carrier” in section 51.5
of the Commission’s rules).
93
See, e.g., Col. PUC Oct. 1, 2016 Letter, Attach. A (listing
Blanca as an incumbent LEC but not as a competitive ETC for
purposes of the ETC’s annual certification of support as required
by section 54.314 of the Commission’s rules, 47 CFR § 54.314).

App. 60
respect thereto (such as forming a separate wireless
subsidiary).94 Accordingly, Blanca was not entitled to
identical support for a competitive CMRS service offering within its study area absent a new designation or
the modification of its existing designation.95
37. Further, while Blanca now asserts that it is a
competitive ETC in areas served by a different incumbent LEC where it offered CMRS and, therefore, is entitled to support for such offering, the overpayments
here related to study area 462182, in which Blanca was
the incumbent LEC, not a competitive carrier. Moreover, Blanca has not produced any evidence that it has
sought or obtained the requisite ETC designation for

94

See Federal-State Joint Board on Universal Service, CC
Docket No. 96-45, Report and Order, 20 FCC Rcd 6371, 63926397, paras. 48-57, 60 (2005); id. at 6396-97, paras. 58, 60 (encouraging state commissions to adopt the same public interest
analysis as conducted by the Commission and to apply the test “in
a manner that will best promote the universal service goals found
in section 254(b) [of the Act]”).
95
In 2011, the Colorado PUC required a designated ETC offering LEC services, as a condition of receiving an ETC designation to offer CMRS services, to form a separate wireless
subsidiary. See Application of Union Tel. Co., DBA Union Wireless, for Designation as an Eligible Telecommunications Carrier
in Colorado., 09A-771T, 2011 WL 5056338, at *8, para. 30 (Apr.
26, 2011) (recognizing that while “no statute or rule requires formation of a separate wireless subsidiary as a condition of receiving an ETC designation for wireless operations,” the condition
served the public interest where a LEC offers CMRS services
given a “high risk of comingling and cross-subsidization (regulated, deregulated, and unregulated services in four states and
common facilities)”).

App. 61
any other areas for, or expanded its existing designation to cover, these areas. Absent such designation,
Blanca is not eligible for support in these areas. Tellingly, Blanca never sought identical support on a correctly calculated per-line basis from USAC for services
provided outside its study area as a competitive ETC—
indeed, it made no administrative filings to claim identical support at all—and it is not now entitled to have
the overpaid rate-of-return support for study area
462182 offset against any speculative sum it might
have received had it done so.96
38. Having reached these conclusions, we find no
basis to Blanca’s contentions that OMD’s recovery efforts here retroactively alter the terms and conditions
under which it was entitled to high-cost support.97 The
mere disbursement of USF does not ratify its legality,
and any claim Blanca can assert to USF support is conditioned on Blanca having met the eligibility and use
criteria, long codified in our rules and reiterated in
NECA guidance, and subject to audit and recovery action.98 In making its finding, OMD did not adopt or
96

Blanca never filed quarterly line counts on FCC Form 525,
a requirement for recovering support as a competitive ETC pursuant to section 54.307(c). 47 CFR § 54.307(c).
97
Application at 16-17; Petition at 7-8, 11-12.
98
See, e.g., 47 CFR § 54.707 (establishing authority of USAC
to audit carriers’ data submissions); Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint Board on Universal Service, CC Docket No.
97-21, Order, 15 FCC Rcd 22975, 22981-82, para. 16 (2001) (establishing procedures for implementing commitment adjustment
recovery actions); Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint

App. 62
apply a new requirement to past conduct or apply a
new interpretation of our rules and precedent.99 Rather, OMD applied our rules, which base rate-of-return
high-cost support on an incumbent LEC’s embedded
costs in providing a regulated service.100 Blanca’s requests for payment with respect to study area 462182
were inconsistent with those rules and the underlying
policy, as well as numerous other Commission orders
cited herein.101

Board on Universal Service, CC Docket Nos. 97-21 and 96-45, Order, 15 FCC Rcd 22975, 22982, para. 16 (2000) (“[C]onsistent with
the Commission’s obligations under the DCIA, following USAC
referrals to the Commission, the Commission will issue letters demanding repayment from service providers that are obligated to
pay erroneously disbursed funds”); cf. Old Republic v. Fed. Crop
Ins. Corp., 947 f. 2d 269, 272 (7th Cir. 1991) (agencies have authority under contract, statute, and common law to recoup overpayments that result from agency error).
99
See, e.g., Nat’l Mining Ass’n v. U.S. Dep’t of Interior, 177
F.3d 1, 8 (D.C. Cir. 1999) (explaining that a rule operates retroactively if it “ ‘takes away or impairs vested rights acquired under
existing law, or creates a new obligation, imposes a new duty, or
attaches a new disability in respect to transactions or considerations already past.’ ”) (quoting Ass’n of Accredited Cosmetology
Schs. v. Alexander, 979 F.2d 859, 864 (D.C. Cir. 1992) (citation
omitted)).
100
See 47 CFR Parts 64, 36, 69.
101
See, e.g., Verizon Tel. Cos. v. Fed. Commc’ns Comm’n, 269
F.3d 1098, 1110 (D.C. Cir. 2001) (explaining that despite numerous tests for manifest injustice among the circuits, the D.C. Circuit Court of Appeals has generally held questions of manifest
injustice “boil down to a question of concerns grounded in notions
of equity and fairness” and “detrimental reliance”) (citations omitted).

App. 63
39. Nor did the continued funding of Blanca in
accordance with its reported costs from 2005 until
2010 give rise to the kind of reliance interests that
would make this debt adjudication a violation of due
process. Contrary to Blanca’s contentions, the holding
in Christopher v. SmithKline Beecham Corporation
does not suggest otherwise.102 In SmithKline, the U.S.
Supreme Court declined to defer to an agency’s new
interpretation of its long-standing but ambiguous statutes and rules where such new interpretation threatened “massive liability” for prior conduct affected
parties could not have reasonably anticipated.103 In so
holding, the Court placed special emphasis on, among
other things, the agency’s clear and decades-long acquiescence to industry-wide noncompliance.104 In contrast, in directing Blanca to repay amounts it had been
102

See Application at 9 (citing Christopher v. SmithKline
Beecham Corp., 132 S. Ct. 2156, 2168 (2012); see also, e.g., Qwest
v. FCC, 509 F.3d 531, 540 (D.C. Cir. 2007) (holding that manifest
injustice results when the affected party’s reliance is “reasonably
based on settled law contrary to the rule established in the adjudication”).
103
See SmithKline, 132 S. Ct. at 2166-68. More specifically,
the Court explained that the highly deferential standard generally applicable to agency interpretations of its own statutes and
regulations did not apply where the agency advanced an interpretation that was “plainly erroneous or inconsistent with regulation,” and/or “not reflect[ive] [of ] the agency’s fair and considered
judgment.” Id. at 2166 (quoting Auer v. Robbins, 518 U.S. 452,
461-62 (1997)). Accordingly, the Court reviewed the agency’s interpretation under the less deferential Skidmore standard, ultimately finding the agency’s interpretation to be “unpersuasive.”
See id. at 2169-70.
104
SmithKline, 132 S. Ct. at 2167–68.

App. 64
overpaid, OMD did not adopt a new interpretation of
ambiguous rules but merely applied explicit Commission rules widely accepted by the industry.105 Moreover,
contrary to Blanca’s contentions, the mere continued
funding of Blanca pending a factual investigation into
Blanca’s cost accounting methods is not equivalent to
complicity in industry-wide noncompliance. Further,
the Commission has consistently stated that it conditions all funding on proper use and receipt; relies on
audits and other program safeguards to ensure compliance with its rules designed to implement the foregoing statutory mandates under section 254; and, has
regularly and quite properly sought recovery for improper payments at the conclusions of audits and investigations that have found overpayment of universal
service funds.106

105

Indeed, NECA guidance made clear that the industry had
adopted the same interpretation of funding eligibility as set forth
in the OMD Letter. See OMD Letter at 4 (citing NECA Paper 4.9,
Use of Wireless Technology to Provide Regulated Local Exchange
Service).
106
See, e.g., Comprehensive Report and Order, 22 FCC Rcd at
16386, para. 30 (“Consistent with our conclusion regarding the
schools and libraries program, funds disbursed from the highcost, low-income, and rural health care support mechanisms in
violation of a Commission rule that implements the statute or a
substantive program goal should be recovered.”); id. at 16382,
para. 19 (explaining that “[a]udits are a tool for the Commission
and the Administrator, as directed by the Commission, to ensure
program integrity and to detect and deter waste, fraud, and
abuse,” and that “[a]udits can reveal violations of the Act or the
Commission’s rules”).

App. 65
C. The Commission Has Authority to Seek
Repayment of Improperly Disbursed
Universal Service Funds
40. The Commission has the statutory authority
to review the results of USF audits and investigations,
and where it determines that USF payments were
sought and received in violation of the Commission’s
rules it has the authority to recover such funding regardless of fault, and to recover such funding. In section 254 of the Act, Congress created the USF and
tasked the agency with overseeing it.107 In doing so,
Congress granted to the FCC the necessary authority
to adjudicate and recover unauthorized funding.108
Such authority is essential to the fair administration
of the universal service support programs. In its
107

47 U.S.C. § 254(e).
See, e.g., Bechtel v. Pension Benefit Guar. Corp., 781 F.2d
906, 907 (D.C. Cir. 1986) (finding that the “government’s right to
recoup funds owing to it is beyond dispute and will not be deemed
to have been abandoned unless Congress has clearly manifested
its intention to raise a statutory barrier”); Mount Sinai Hosp. v.
Weinberger, 517 F.2d 329, 377 (5th Cir. 1975), modified on other
grounds, 522 F.2d 179 (5th Cir. 1975) (finding that the statutory
prohibition against any Medicare payments or services which are
medically unnecessary implicitly limits the authority of Department of Health, Education and Welfare officials to make payments under Medicare and is exactly the type of limitation which
creates both a legal claim in the government and a remedy by way
of setoff against the recipient of any such improper payment); cf.
Bennett v. Ky. Dep’t of Educ., 470 U.S. 656, 663 (1985) (“The State
gave certain assurances as a condition for receiving the federal
funds, and if those assurances were not complied with, the Federal Government is entitled to recover amounts spent contrary to
the terms of the grant agreement.”).
108

App. 66
absence, the Commission would be unable to effectively protect the USF and the contributors thereto
from the kinds of market distortions arising from misuse or misallocation of USF support explicitly recognized by Congress in section 254(k) of the Act and
directly implicated by Blanca’s cost allocation errors.109
Once the agency makes a final determination that certain payments were erroneous and/or illegal, the
agency has the authority and obligation under the
DCIA to treat these overpaid sums as federal claim
subject to collection, including by offset.110

109

Because we hold that the agency has direct statutory authority to make these determinations under the Act, we need not
address the question of whether the Commission possesses direct
common law authority to recover such sums by standing in the
shoes of a contracting party. Compare Bell v. New Jersey, 461 U.S.
773, 782 n.7 (1983) (in finding express authority to pursue recovery of misused grant funds, declining to address alternative argument that the government has a common law right to collect funds
whenever a grant recipient fails to comply with conditions on the
grant) with Mt. Sinai Hosp., 517 F.2d at 337 (holding that independent of specific statutory authority, an agency may recover
funds which are granted for specific purposes and misspent in
contradiction of those purposes); cf. Pennhurst State Sch. & Hosp.
v. Halderman, 101 S. Ct. 1531, 1540 (1981) (“[L]egislation enacted pursuant to the [S]pending [P]ower is much in the nature
of a contract: in return for federal funds, the States agree to comply with federally imposed conditions.”).
110
The DCIA authorizes appropriate agency officials to determine that a debt is owed to the United States and defines debt
to include “over-payments, including payments disallowed by audits performed by the Inspector General of the agency administering the program” and “any “other amounts of money or
property owed to the Government.” 31 U.S.C. § 3701(b)(1); 31
CFR §900.2(a).

App. 67
41. Blanca’s argument that as a matter of equity
we should limit our recovery of overpaid USF to “cases
of misrepresentation, false statement, concealment,
obstruction, or lack of cooperation,” are unavailing.111
The question of whether Blanca had “clean hands” or
intentionally misreported its costs is irrelevant.112
Blanca does not allege—nor could it—that the Commission’s effort to collect improperly disbursed USF
support is dependent on any finding of specific intent.113 So too do we find irrelevant Blanca’s repeated
emphasis on the fact that Blanca began a practice of

111

Application at 23; Petition at 22.
Contrary to Blanca’s contentions, the Commission in its
Writ Opposition did not concede that Blanca accepted the overpaid support with “clean hands;” rather, the Commission stressed
merely that it had made no finding of fault or intent because such
a finding would have been irrelevant to the Commission’s recoupment efforts. Compare First Supplement at 7 (citing Writ Opposition at 14 to support contention that the Commission concedes
Blanca had “clean hands”) with Writ Opposition at 14 (explaining
that a finding of misconduct is not relevant to an action in recoupment).
113
Recovery of overpaid USF support, unlike the recovery of
some other forms of governmental support, such as social security
or Medicaid benefits, is not subject to specific statutory bars based
on equity or fault. See, e.g., 42 U.S.C. § 404(b) (prohibiting the
recovery of overpaid social security benefits from “any person who
is without fault if such adjustment or recovery would defeat the
purpose of this subchapter or would be against equity and good
conscience.”); id. § 1395gg(b) (prohibiting offset or recoupment of
overpaid Medicare benefits where a supplier or provider is “without fault”); see also Bennett, 470 U.S. at 656–57 (finding that “recovery of the misused funds was not barred on the asserted
ground that the State did not accept the grant with “knowing acceptance” of its terms).
112

App. 68
misreporting costs to NECA in 2005.114 Even if the
agency could reasonably have discovered the underlying noncompliance earlier, Blanca would not have been
relieved of the obligation to repay the funds.115 Indeed,
here the Commission has a specific statutory obligation to make sure that high-cost funds are used for
their intended purposes, and seek repayment of improperly distributed funds.116
42. Blanca is incorrect when it asserts that the
Commission is creating a “novel summary debt claim
adjudication procedure” and applying it to Blanca
without notice or opportunity challenge the Commission’s findings.117 When the Commission determines
whether a specific set of USF payments is erroneous or
illegal, it is making a fact-specific, individualized determination applying current laws to past conduct, i.e.,
an informal adjudication.118 Such an action does not
114

See Application at 9, 13; Petition at 8-9.
See, e.g., Mt. Sinai Hosp., 517 F.2d at 337 (“where the payments would be authorized but for erroneous understandings of
fact, the government may recover, even where its own employees
and agents were partly responsible for failing to discover the correct facts”) (citing United States v. Barlow, 132 U.S. 271, 279-280,
281-282 (1889)).
116
47 U.S.C. § 254(b)(5); id. § 254(e).
117
See Application at 23; Petition at 21-22.
118
See, e.g., Conference Grp., 720 F.3d at 965 (finding that
the Commission’s decision to uphold a USAC determination regarding audio bridging provider’s contribution obligation was an
informal adjudication); AT&T v. FCC, 454 F.3d 329, 333 (D.C.
Cir. 2006) (finding that the Commission’s order classifying
AT&T’s prepaid calling cards for the first time to be an adjudication).
115

App. 69
meet the definition of a rulemaking and no statute requires it to be conducted through “on the record” hearings.119 The Act gives the Commission broad authority
to delegate that adjudicatory authority and in this context, the Commission has delegated authority to both
WCB and to OMD.120 In any event, the Act also specifically provides that all persons aggrieved by an order,
decision, report or action made or taken on delegated
authority have rights of appeal within the agency,
while sections 1.106 and 1.115 of the Commission’s
rules set the specific procedures and requirements for
making such appeals and seeking reconsideration of
agency actions.121
119

See Izaak Walton League v. Marsh, 655 F.2d 346, 361 n.37
(D.C. Cir. 1981) (“The APA itself does not use the term ‘informal
adjudication.’ Informal adjudication is a residual category including all agency actions that are not rulemaking and that need not
be conducted through ‘on the record’ hearings.”); see also, e.g.,
Nat’l Biodiesel Bd. v. EPA, 843 F.3d 1010, 1017-18 (D.C. Cir.
2016) (reasoning that informal adjudications may be used in
highly fact-specific contexts).
120
47 U.S.C. § 155(c)(1) (allowing the Commission, “by published rule or by order, [to] delegate any of its functions”); 47 CFR
§ 0.91(m) (authorizing WCB to “[c]arry out the functions of the
Commission under the Communications Act of 1934, as amended,
except as reserved to the Commission”); id. § 0.291 (reserving the
power to “decide issues of first impression, described as “any applications or requests which present novel questions of fact, law
or policy which cannot be resolved under outstanding precedents
and guidelines”); id. § 0.231.
121
See, e.g., 47 U.S.C. § 155(c)(4) (“[taken on delegated authority] may file an application for review by the Commission
within such time and in such manner as the Commission shall
prescribe, and every such application shall be passed upon by the
Commission.”); id. § 405(a) (“After an order, decision, report, or

App. 70
43. Also contrary to Blanca’s assertion, section
503 forfeiture proceedings are not the exclusive means
by and through which the Commission may make a determination that a rule has been violated and impose
liability. The Commission or USAC has consistently
sought recovery of USF funds outside of section 503
proceedings.122 By its terms, section 503(b) imposes forfeiture liability for violation of any Commission rule,
whether or not the violation has led to any improper
payment by the Commission (or USAC). Neither the
plain language of section 503 of the Act nor its legislative history indicates that Congress intended that
action has been made or taken in any proceeding by the Commission, or by any designated authority within the Commission pursuant to a delegation under section 155(c)(1) of this title, any
party thereto, or any other person aggrieved or whose interests
are adversely affected thereby, may petition for reconsideration
only to the authority making or taking the order, decision, report,
or action; and it shall be lawful for such authority, whether it be
the Commission or other authority designated under section
155(c)(1) of this title, in its discretion, to grant such a reconsideration if sufficient reason therefor be made to appear.”). See also
47 CFR §§ 1.106, 1.115.
122
See, e.g., Comprehensive Review of the Universal Service
Fund Management, Administration, and Oversight, WC Docket
No. 05-195, Notice of Proposed Rulemaking and Further Notice
of Proposed Rulemaking, 20 FCC Rcd 11308, 11338, para. 70
(2005) (describing USAC audit program that had led to the recommended recovery of USF in various programs, including
$6,243,223 for the high-cost support mechanism); Requests for Review or Waiver of Decisions of the Universal Service Administrator
by Academia Avance, et al.; Schools and Libraries Universal Service Support Mechanism, CC Docket No. 02-6, Order, 28 FCC Rcd
12859 (WCB 2013) (affirming USAC decision seeking to recover
funds disbursed from the schools and libraries universal service
support program).

App. 71
section to govern debt determinations, and Blanca has
provided no evidence to the contrary.123 The legislative
history of section 503 makes clear that the statute applies only to monetary forfeitures and that such forfeitures are an enforcement measure.124
44. We in turn disagree that the Supreme
Court’s Kokesh decision helps Blanca here.125 The
Kokesh Court held that a Security and Exchange Commission (SEC) disgorgement action was a penalty for
violating federal securities law, and thus, subject to the
APA’s generally applicable five-year statute of limitations in section 2462 governing any “action, suit or proceeding for the enforcement of any civil fine, penalty, or
123

See, e.g., Liability of Sonderling Broadcasting Corporation, 69 FCC 2d 289, 292, para. 10 (1977) (finding that “the statutory purpose of the forfeiture provisions is that the Congress
intended that forfeitures be a method of civil punishment”) (citing
Hearings, Communications Subcommittee of the Senate Committee on Interstate and Foreign Commerce on Proposed Amendments to the FCC Act of 1934 (S 1898), 86th Congress, 2nd
Session, p. 76); Bennett, 470 U.S. at 662–63 (holding that the recovery of misused grant funding is “more in the nature of an effort
to collect upon a debt than a penal sanction,” where the recipient
gave “certain assurances as a condition for receiving the federal
funds,” and was aware at the time funds were received that the
federal government was “entitled to recover amounts spent contrary to the terms of the grant agreement”).
124
See N.J. Coal. for Fair Broad. v. Fed. Commc’ns Comm’n,
580 F.2d 617, 619 (D.C. Cir. 1978) (emphasizing that [section 503]
created only one of several possible enforcement actions and that
the legislative history made clear that, “the FCC will not be precluded from ordering a forfeiture merely because another type of
sanction or penalty has been or may be applied to the licensee or
permittee.”) (citations omitted).
125
See Kokesh v. S.E.C., 137 S. Ct. 1635, 1642 (2017).

App. 72
forfeiture, pecuniary or otherwise.”126 Key to that decision was its finding that a penalty is designed to punish and deter future violations rather than to
compensate a “victim.”127 The Court reasoned that SEC
disgorgement was an action that left the defendant
“worse off,” since a court could order disgorgement that
“[exceeded] the profits gained as a result of the violation,” and that disregarded “a defendant’s expenses
that reduced the amount of illegal profit.”128 The Court
emphasized that when a sanction “can only be explained as . . . serving either retributive or deterrent
purposes,” it is a “punishment.”129
45. Here, the Commission is merely seeking to
recover sums improperly paid in which Blanca held no
entitlement under section 254 and the Commission’s
implementing rules.130 It is not a punitive measure
that seeks to deter future misconduct by other carriers
126

Id. at 1642 (quoting 28 U.S.C. § 2462).
Id.
128
Id. at 1644-45.
129
Id. at 1645 (quoting Austin v. United States, 509 U.S. 602,
621 (1993)).
130
See Comprehensive Report and Order, 22 FCC Rcd at
16386, para. 30 (distinguishing the recovery of USF support disbursed in violation of Commission rule from enforcement actions
reserved for cases of fraud, waste, and abuse); see also, e.g., Universal Service Contribution Methodology, WC Docket No. 06-122,
Order, 32 FCC Rcd 4094, 4098, para. 14 (WCB 2017) (upholding
USAC decision to collect outstanding contribution obligations
against claims by the carrier that the statute of limitations in section 503(b)(6) of the Act imposes a time bar by distinguishing forfeitures from outstanding debts accruing due to the failure to
fulfill contribution obligations).
127

App. 73
but merely returns Blanca to the status quo ante.131 It
does not punish Blanca for the potential public and
market harm arising from Blanca’s improper cost accounting but merely recovers for the USF a windfall to
which Blanca was not entitled under the foregoing
statutory and regulatory scheme.132 Any negative financial impact that Blanca may experience as a result
of recovery of this improper payment cannot transform
this action into a sanction or penalty.133

131

See Petitions for Waiver of Universal Service High-Cost
Filing Deadlines, Memorandum Opinion and Order, 31 FCC Rcd
12012, 12017, para. 15 (2016) (determining that a reduction in
support could not be analogized to a forfeiture since “a forfeiture
requires a carrier to pay its own funds to the U.S. Treasury while
in contrast a universal service support reduction requires USAC
to withhold or recover the public’s funds from the carrier”).
132
Compare, e.g., Kokesh, 192 S. Ct. at 1642-43 (citing with
approval distinction made by the U.S. Supreme Court in Meeker
between the recovery of overcharges and a penalty for the public
offense giving rise to the overcharges) (citing Meeker v. Lehigh
Valley R. Co., 236 U.S. 412, 421–422 (1915)) with S.E.C. v. Huffman, 996 F.2d 800, 802 (5th Cir. 1993) (explaining that a disgorgement obligation is not a [sic] “ ‘a mere money judgment or
debt’ ” or a form of restitution but rather more akin to ‘an injunction in the public interest,’ ” enforceable through contempt, and
therefore, is not a federal debt for DCA purposes).
133
See, e.g., United States v. Telluride Co., 146 F.3d 1241,
1246 (10th Cir. 1998) (determining that an injunction requiring
the restoration of damaged wetlands was not a penal action even
though it remedied “wrongs to the public,” i.e., “injuries to the
public’s resources”); United States v. Perry, 431 F.2d 1020, 1025
(9th Cir. 1970) (ruling Government’s action to recover sums allegedly paid in violation of the Anti-Kickback Act was not time
barred by the statute of limitations governing agency enforcement actions (28 U.S.C. § 2462) because the sums sought were
designed to make the Government whole by recovering extra costs

App. 74
46. Nor do, as Blanca asserts, sections 1.1901(e)
and 1.1905 of our rules indicate any contrary Commission intent to treat decisions underlying debt determinations as synonymous with forfeiture actions.134
Consistent with the DCIA and contrary to Blanca’s assertions, section 1.1901(e) does not limit recovery actions to partially-paid or judicially-ordered forfeitures
but includes any amount due the United States, including overpayments from USF.135 Similarly, section
1.1905 does not suggest that recovery actions must follow the procedures for forfeiture liability. Rather, that
section of our rules merely makes clear that such debt
collection rules neither supersede such procedures nor
require their duplication.136

incurred when kickbacks were paid); United States v. Doman, 255
F.2d 865, 869 (3d. Cir. 1958) (holding that the Government’s action under Surplus Property Act was not barred by section 2462
since the recovery was compensatory to the Government, not a
penalty), aff ’d, 359 U.S. 309 (1959).
134
See Application at 15-16; 47 CFR §§ 1.1901(e); 1.905 [sic].
135
31 U.S.C. § 3701(b)(1) (defining “claim” or “debt,” as “any
amount of funds or property that has been determined by an appropriate official of the Federal Government to be owed to the
United States by a person, organization, or entity other than another Federal agency.”).
136
47 CFR § 1.1905. We note that this language is consistent
with similar language in the Federal Claims Collection Standards
(FCCS), 31 CFR parts 900-904, a set of rules jointly passed by the
Treasury Department and the DOJ prescribing DCIA-related collection standards unless the program legislation under which the
claim arises or some other statute provides otherwise. Id. § 900.1(a);
31 CFR § 901.2(a) (explaining that, with regarding [sic] to notice of a governmental claim, “[g]enerally, one demand should
suffice”); id. § 901.3(b)(4)(iv) (“When an agency previously has

App. 75
E. The Commission Afforded Blanca Due
Process
47. The Commission processes have afforded
Blanca sufficient due process. Informal adjudications
should provide notice to affected parties, opportunity
to participate, and supporting reasons.137 In adopting
section 3716 of the DCIA, Congress explicitly preserved “all appropriate due process rights, including
the ability to verify, challenge, and compromise claims”
by requiring, prior to the initiation of offset, that the
debtor be sent written notice describing the type and
amount of the claim, the intention of the agency head
to collect the claim by administrative offset, and an explanation of the rights of the debtor under section
3716, as well as opportunities to inspect and copy
given a debtor any of the required notice and review opportunities
with respect to a particular debt, the agency need not duplicate
such notice and review opportunities before administrative offset
may be initiated.”).
137
See Pension Benefit Guar. Corp. v. LTV Corp., Inc., 496
U.S. 633, 655 (1990) (citation omitted) (“The determination in
this case, however, was lawfully made by informal adjudication,
the minimal requirements for which are set forth in the APA.”);
Sw. Airlines Co. v. Transp. Sec. Admin., 650 F.3d 752, 757 (D.C.
Cir. 2011) (“In informal adjudications like these, agencies must
satisfy only minimal procedural requirements.” (internal quotation marks and brackets omitted)); 5 U.S.C. § 555(e) (2000) (requiring each agency, “[w]ith due regard for the convenience and
necessity of the parties or their representatives and within a reasonable time, [to] proceed to conclude a matter presented to it,”
and to give “[p]rompt notice . . . of the denial of a written application, petition, or other request of an interested person made in
connection with any agency proceeding . . . [with] a brief statement of the grounds for denial”).

App. 76
agency records related to the claim, to receive agency
review of its claim-related decisions, and to enter into
a repayment agreement with the agency head.138 An
agency need not, however, duplicate such notice and
review opportunities in order to initiate offset.139
48. In the OMD Letter, OMD provided Blanca
with specific notice of the factual and legal predicates
for its conclusion that Blanca received $6,748,280 in
high-cost USF support in error. The OMD Letter did
not fall short of the requisite notice by citing rule parts
rather than specific sections. The cost accounting
framework embodied in the rule parts cited by OMD,
i.e., Parts 36, 64, and 69 of the Commission’s rules,
make clear that under the Act and the Commission’s
rules, CMRS-related expenses are nonregulated expenses that could not be included in regulated accounts for purposes of NECA cost reporting.
49. Blanca states that the OMD Letter deprived
it of access to the underlying cost data upon which the
Commission relied to calculate the overpayments,
which were separately detailed on a per fund, per year
basis in an accompanying attachment.140 But Blanca
did have access to the underlying costs data because
OMD explicitly based its financial accounting on the
138

31 U.S.C. § 3716(a); see also 31 CFR §§ 901, 1.1912. Agencies referring delinquent debts to the Treasury must certify that
the debts are past due and legally enforceable and that the
Agency has complied with all due process requirements as set
forth in 31 U.S.C. § 3716(a); 31 CFR § 901.3(b)(5).
139
31 CFR §§ 901.2(a); 901.3(b)(4)(iv).
140
See Application at 21-22.

App. 77
cost studies Blanca itself commissioned in response to
the demands by NECA and USAC to remove certain
costs and revenues and wireless loops.141 Blanca did
not submit a request to the Commission for such records nor did it assert that it could not adequately challenge the cost accounting because of a lack of access to
such records.142 Indeed, Blanca did not make any attempt to contest the accuracy of the accounting.
50. The OMD Letter also clearly stated that “[i]f
you have evidence establishing that you do not owe the
Debt, or if you have further verified evidence to substantiate your entitlement to receive payment for the
disallowed USF payments, provide such evidence to
the Commission within 14 days of the Due Date.”143
The OMD Letter, therefore, clearly advised Blanca of
the opportunity that it had to request a review, which
Blanca took advantage of by filing the Application for
Review and Request for Reconsideration. Contrary to
Blanca’s assertion, nothing in the OMD Letter suggested that Blanca was precluded from raising legal
arguments or conclusions of fact and law.144 Further, to
the extent that Blanca complains that the OMD Letter
did not comport with the DCIA’s provisions concerning
141

See OMD Letter, Attach. A.
We note that while, in its Fourth Supplement, Blanca disclosed that it had pending requests for all records relating to OIG
subpoenas of NECA records relating to Blanca’s overpayments,
Blanca does not state that such records request has any bearing
on its ability to challenge the Commission’s OMD Letter.
143
OMD Letter at 8.
144
Application at 22.
142

App. 78
an offset letter, such complaint is unfounded as the
OMD Letter is a demand letter not an offset letter.145
We also note that Blanca filed both an Application for
Review and a Petition for Reconsideration, and so was
not harmed in any way by an alleged lack of due process.
D. The Commission Has Authority Under
the DCIA to Collect a Claim
51. In this case, we have chosen to use the collection tools made available under the DCIA and its implementing rules for the collection of debt. Blanca
incorrectly argues that USF is not federal funding subject to the DCIA, and therefore, the agency lacks authority to initiate collection efforts, such as offset, to
collect overpaid USF. As emphasized by the Commission in 2004, the DCIA’s definition of “debt” or “claim”
was not “limited to funds that are owed to the Treasury,” but included all funds “ ‘owed the United States,’ ”
including “overpayments from any agency-administered program.”146 When amending its debt collection
rules to reflect the passage of the DCIA, the Commission made clear that it defined a “claim” to include
debts arising from USF-related payments.147 Indeed,
145

Id. at 22.
See Schools and Libraries Fourth Report and Order, 19
FCC Rcd at 15261, para. 20.
147
See 47 CFR § 1.1901(b) (specifying that references to the
term “Commission” in rules implementing the DCIA includes the
USF, TRS Fund, “and any other reporting components of the
Commission.”).
146

App. 79
both the U.S. Supreme Court, and the United States
Senate have characterized USF as a form of federal
funding.148
52. Blanca also incorrectly argues that the DCIA
does not apply to independent agencies such as the
Commission.149 Blanca’s position is contrary to the only
appellate decision directly on point, i.e., Commonwealth Edison.150 In the 1996 DCIA amendments, Congress did not alter the relevant language and did
nothing to express any disapproval of, or raise any
doubts about, the correctness of the Seventh Circuit’s
result.151 That decision is consistent with the plain language of the statute. Section 3701 of the DCIA defines
an “executive, judicial, or legislative agency” to include
any “department, agency, court, court administrative
office, or instrumentality in the executive, judicial, or
legislative branch of Government.”152 The Commission

148

See United States v. American Library Assoc., Inc., 539
U.S. 194, 199 (2003) (characterizing the E-rate program as a form
of “financial assistance”); S. Rep. 105–226, 1998 WL 413894 (referring to the E-rate program as a “federal universal service assistance,” which is administered in the “form of a subsidy
undertaken as part of the spending power of Congress,” and describing the Children’s Internet Protection Act as an “exercise of
Congress’s power “to see that federal funds are appropriately
used” and as providing “clear notice of the conditions placed on
the acceptance of the federal funds.”).
149
See Application at 19-20; Petition at 18-19.
150
See Commonwealth Edison, 830 F.2d at 618-20.
151
See id.
152
31 U.S.C. § 3701(a)(4); see also 31 CFR § 900.1 (“Federal
agencies include agencies of the executive, legislative, and

App. 80
clearly qualifies under this definition.153 Indeed, the
Commission is frequently described by courts as an independent, executive agency or as an independent
agency within the executive branch.154 To the extent
that the DCIA was adopted to “maximize collections of
delinquent debts owed to the Government by ensuring
quick action to enforce recovery of debts and the use of
all appropriate collection tools,” it makes little sense
that Congress would have excluded several large federal agencies.155 Accordingly, the most natural reading
judicial branches of the Government, including Government corporations.”).
153
See, e.g., In re Aiken Cty., 645 F.3d 428, 439 (D.C. Cir.
2011) (“As a result of the Supreme Court’s 1935 decision in
Humphrey’s Executor v. United States, 295 U.S. 602 (1935), there
are two kinds of agencies in the Executive Branch: executive
agencies and independent agencies.”).
154
See, e.g., FCC v. Fox Television Stations, Inc., 556 U.S.
502, 526 (2009) (referring to the Commission as an executive
agency); CTIA–The Wireless Ass’n v. Fed. Commc’ns Comm’n, 530
F.3d 984, 989 (D.C. Cir. 2008) (emphasizing that Commission officials are “executive agency officials”); Cal. Ass’n of the Physically
Handicapped, Inc. v. Fed. Commc’ns Comm’n, 840 F.2d 88, 93
(D.C. Cir. 1988) (finding that a federal statute applicable to any
“program or activity conducted by any Executive agency” applied
to the “FCC’s own activities”)..
155
See Debt Collection Improvement Act of 1996, Pub.L. No.
104–134, § 31001(b)(1), 110 Stat. 1321, 1321–358 (1996) (“Purposes of 1996 Amendments” note following 31 U.S.C. § 3701); see
also Exec. Order No. 13,019, 61 F.R. 51,763 (Sept. 28, 1996)
(“[T]he primary purpose of the Debt Collection Improvement Act
is to increase the collection of nontax debts owed to the Federal
Government. . . .”); Lawrence v. Commodity Futures Trading
Comm’n, 759 F.2d 767, 772 (9th Cir. 1985) (“The provisions of the
[Federal Claims Collections Act of 1966] and the amendments in
the Debt Collection Act of 1982 express a Congressional mandate

App. 81
of the reference to the three branches in section 3701
is to presume Congressional intent to be inclusive of a
broad range of federal entities.
53. Blanca also argues incorrectly that OMD
lacks authority to act under the DCIA and that therefore, the OMD Letter is ultra vires.156 The Commission
has delegated to the managing director of OMD or his
designee the power to perform all “administrative determinations provided for in the Debt Collection Improvement Act,”157 as it is entitled to do under the
Communications Act.158 And the DCIA specifically authorizes the head of any agency to collect debts pursuant to the agency’s own regulations.159 Accordingly, we
reject Blanca’s contentions that such delegation is impermissible.160
54. In sum, we conclude that the Commission
has authority under the DCIA to collect the overpayments Blanca received; that OMD lawfully acted on
the Commission’s behalf in determining that Blanca
that agencies play a more active role in the collection of delinquent claims than merely referring them to the Department of
Justice.”).
156
Application at 21.
157
41 CFR § 0.231.
158
47 U.S.C. § 155(c), (e).
159
31 U.S.C.§ 3711(a)(1), (b).
160
47 CFR § 0.231(f ); United States v. Giordano, 416 U.S.
505, 512–13 (1974) (reasoning that when a statute delegates authority to a federal officer or agency, subdelegation to a subordinate federal officer or agency is presumptively permissible absent
affirmative evidence of a contrary congressional intent).

App. 82
owes the USF $6,748,280 and in issuing the OMD Letter; that the overpayment determination is not a forfeiture and, therefore, section 503 of the Act and the
Commission’s regulations implementing section 503
are not applicable; and, finally, that Blanca has not
been deprived of due process. Accordingly, we affirm
OMD’s determination that Blanca must repay
$6,748,280 to the USF, and we direct OMD to pursue
collection of that amount from Blanca, whether by offset, recoupment, referral of the debt to the United
States Department of Treasury for further collection
efforts or by any other means authorized by the DCIA
or common law.
IV. ORDERING CLAUSES
55. Accordingly, IT IS ORDERED, pursuant to
the authority contained in sections 1, 2, 4(i), 4(j), 5, 214,
and 254 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152, 154(i), 154(j), 155, 214,
254, and sections 1.106 and 1.115 of the Commission’s
rules, 47 CFR §§ 1.106, 1.115, that this Memorandum
Opinion and Order is ADOPTED.
56. IT IS FURTHER ORDERED that, pursuant
to section 5(c)(5) of the Communications Act of 1934,
as amended, 47 U.S.C. § 155(c)(6), and section 1.115(g)
of the Commission’s rules, 47 CFR § 1.115(g), the Application for Review of Blanca Telephone Company IS
DENIED.
57. IT IS FURTHER ORDERED, that the following pleadings ARE DISMISSED as unauthorized

App. 83
pursuant to 47 C.F.R. § 1.115(d) and 47 C.F.R. § 1.45(c)
to the extent that the pleadings address arguments
that could have been timely raised in the Application
for Review: Motion for Leave to Supplement Emergency Application for Review; Second Motion for Leave
to Supplement Emergency Application for Review;
Third Motion for Leave to Supplement Emergency
Application for Review; Fourth Motion for Leave to
Supplement Emergency Application for Review. Otherwise, these pleadings ARE DENIED, pursuant to section 5(c)(5) of the Communications Act of 1934, as
amended, 47 U.S.C. § 155(c)(6), and section 1.115(g) of
the Commission’s rules, 47 CFR § 1.115(g).
58. IT IS FURTHER ORDERED that, pursuant
to the authority contained in sections 1, 2, 4(i), 5, 214,
254, and 303(r) of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152, 154(i), 155, 214, 254,
303(r), and section 1.106(a)(1) of the Commission’s
rules, 47 CFR § 1.106(a)(1), the Petition for Reconsideration filed by Blanca Telephone Company IS DENIED.
59. IT IS FURTHER ORDERED that, pursuant
to section 1.103 of the Commission’s rules, 47 CFR
§ 1.103, this Order SHALL BE EFFECTIVE upon release.
FEDERAL COMMUNICATIONS COMMISSION
Marlene H. Dortch
Secretary

App. 84
STATEMENT OF
COMMISSIONER MIGNON L. CLYBURN
Re: Blanca Telephone Company, Seeking Relief from
the June 22 [sic], 2016 Letter Issued by the Office
of the Managing Director Demanding Repayment
of a Universal Service Fund Debt Pursuant to the
Debt Collection Improvement Act, WC Docket No.
96-45
The FCC is about to confront what can best be described as an unfortunate situation: A company that
should have known better, and an agency that should
have figured it out sooner. Blanca Telephone Company
should have known that it was impermissible to claim
that costs for both their wireline and wireless network
were compensable. The FCC should have quickly discovered this wrongdoing, and addressed it with swift
enforcement action. Sadly, it was too little, too late, on
both accounts.
At least today we can make clear that at a minimum the Universal Service Fund (USF) is due the
money that was wrongfully spent. For that, I vote to
approve.
I remain fearful, however, about whatever else lies
beneath. As a consistent spokesperson on the need to
address waste, fraud, and abuse in our universal service outlays, I have seen too many instances—particularly during my time as a state commissioner—of
companies using the USF high-cost fund as a piggy
bank for all manner of inappropriate expenses. Unfortunately for the high-cost fund and for all of us, we remain slow in discovering wrongdoing and late in

App. 85
addressing it. As the agency considers further reforms
to our high-cost fund, I am hopeful that we will also
take a serious look at measures to stamp out waste,
fraud, and abuse wherever we find it.

STATEMENT OF
COMMISSIONER MICHAEL O’RIELLY
Re: Blanca Telephone Company, Seeking Relief from
the June 22 [sic], 2016 Letter Issued by the Office
of the Managing Director Demanding Repayment
of a Universal Service Fund Debt Pursuant to the
Debt Collection Improvement Act, WC Docket No.
96-45
As the steward of federal universal service funds
collected from American consumers and businesses,
the FCC must do everything within its authority to
root out waste, fraud, and abuse. Part of that responsibility is fulfilled by enacting clear rules and appropriate limits or “guardrails,” as I’ve called them, to ensure
that funds are being used as efficiently as possible for
their intended purposes. As the Commission has reformed parts of the high-cost program, I have worked
to improve oversight and accountability. Most recently,
I have been working with Commissioner Clyburn to
update the rate-of-return rules to delineate what types
of expenses cannot be funded through universal service or allowed in the rate base. For instance, I am
aware of no one that supports the notion that these
precious dollars could be used for such purposes as personal yachts or country club golf memberships. To be
clear, this is not an attempt to enact unnecessary

App. 86
micromanagement of private companies, but instead
reasonable limitations to prevent the most egregious
practices. Hopefully that effort will soon bear fruit.
The other key component is taking swift action to
recoup funding once the Commission becomes aware of
problems. I am concerned, therefore, that the troubling
conduct at issue here occurred between 2005 and 2010,
was not discovered until 2012, and is only now being
remedied. We must do better. The longer the delay, the
greater the risk that we will lack the evidence and ability to pursue even the most fraudulent of behavior. In
this instance, the rules were sufficiently clear, the misconduct was egregious, and the proof is adequately documented that I am willing to collect the overpayments,
notwithstanding the delay.
At the same time, I have heard complaints that
USAC has been attempting to recoup certain overpayments from a decade ago that reportedly resulted from
ministerial errors rather than fraud – the type of situation where the steps to obtain recovery at this point
may cost more than the funding at stake. Moreover, recipients that obtained funding that long ago may not
have been under an obligation to retain records for
that length of time, relevant personnel may no longer
be found, and rules now in place may not have been
applicable that far back in the past. Make no mistake:
I abhor any waste, fraud or abuse caused by wrongdoers and fully support the recoupment of such funds.
However, I am sympathetic to the view that the Commission generally should be required to recover funding within a defined timeframe, such as 7 years.

App. 87
Certain timing limitations imposed on the Commission, like those that exist in other areas, would not
wholly prevent the exercise of oversight or imposition
of enforcement actions when needed. To the extent that
would require clarification or direction by Congress,
that could be a welcome improvement.

App. 88
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
-----------------------------------------------------------------------

No. 16-1216

September Term, 2016
FCC-06/02/16 Letter
Filed On: December 12, 2016

In re: Blanca Telephone Company,
Petitioner
BEFORE: Garland, Chief Judge,* and Henderson,
Rogers, Tatel, Brown, Griffith, Kavanaugh,
Srinivasan, Millett, Pillard, and Wilkins, Circuit Judges
ORDER
Upon consideration of the petition for rehearing
en banc, and the absence of a request by any member
of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows
Deputy Clerk
* Chief Judge Garland did not participate in this matter.

App. 89
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
-----------------------------------------------------------------------

No. 16-1216

September Term, 2016
FCC-06/02/16 Letter
Filed On: October 21, 2016

In re: Blanca Telephone Company,
Petitioner
BEFORE: Rogers, Srinivasan, and Wilkins, Circuit Judges
ORDER
Upon consideration of the petition for writ of prohibition, the response thereto, and the reply, it is
ORDERED that the petition be denied. The
grounds for issuing a writ of prohibition “are virtually
identical” to the grounds for issuing a writ of mandamus. In re al-Nashiri, 971 F.3d 71, 75 n.3 (D.C. Cir.
2015). Petitioner has not shown a clear and indisputable right to the extraordinary remedy of prohibition.
See Northern States Power Co. v. U.S. Dep’t of Energy,
128 F.3d 754, 758 (D.C. Cir. 1997).
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after resolution of any timely petition for rehearing or

App. 90
petition for rehearing en banc. See Fed. R. App. P. 41(b);
D.C. Cir. Rule 41.
Per Curiam

App. 91
[SEAL] Federal Communications Commission
Office of General Counsel
Washington, D.C. 20554
June 22, 2016
By Email and USPS
Timothy E. Welch, Esq.
Hill and Welch
1116 Heartfields Drive
Silver Spring, MD 20904
Re: Blanca Telephone Company – Emergency Application for Review
Dear Mr. Welch,
We have received the Emergency Application for Review filed on behalf of the Blanca Telephone Company
on June 16, 2016 (the “Application”). In accordance
with our normal procedures, the Application will be
considered and an order prepared adjudicating your
claims on behalf of your client. In the Application, you
express concern that the Commission will immediately
“RED Light” your client and institute an offset of monies paid to it by the Universal Service Fund. The purpose of this letter is to assure you that, as your client
timely filed the Application, the Managing Director’s
Office will not activate a RED Light on your client’s
account, neither will an offset be instituted, while the
Application is pending.
We anticipate that the Application will be dealt with
expeditiously and, in the interim, we are available
to continue the settlement discussions previously
started by your client’s attorney, Mr. Tegtmeier, with

App. 92
the Department of Justice. If you wish to discuss settlement, please contact Neil Dellar at (202) 418-8214
or neil.dellar@fcc.gov.
Sincerely yours,
/s/ Mark Stephens
Mark Stephens
Acting Managing Director
Copies:
Suzanne Tetreault, Deputy GC

App. 93
[SEAL]
Federal Communications Commission
Washington, D.C. 20554
June 2, 2016
By UPS Overnight
And E-Mail to alanwehe@fone.net
alanwehe@GoJade.Org
Mr. Alan Wehe
General Manager
Blanca Telephone Company
129 Santa Fe Ave.
Alamosa, CO 81101
Re: The Blanca Telephone Company
Demand for Repayment of USF High-Cost Funds
DO NOT DISCARD THIS IMPORTANT
NOTICE OF A DEMAND FOR PAYMENT
OF A DEBT OWED TO THE UNITED
STATES AND ORDER OF PAYMENT
Dear Mr. Wehe:
This letter is to notify you that the Federal Communications Commission (the “FCC”) has determined
that the Blanca Telephone Company (“Blanca” or the
“Company”) has received improper payments from the
Universal Service Fund’s (“USF”) high-cost program in
the amount of $6,748,280, which was paid between
2005 and 2010. Our determination follows an investigation by the FCC’s Office of Inspector General (OIG),
the Universal Service Administrative Company (USAC),
and the National Exchange Carrier Association (NECA).

App. 94
The determination of an overpayment also constitutes
a debt owed to the United States that must be recovered and is immediately due and payable without
further demand. Additionally, this is a Demand for
Payment which provides you with certain important
information including: (a) the fact that payment is
due immediately, in full, and without further demand,
(b) the background of the debt, (c) important rights,
and (d) instructions for payment.
Background
On March 17, 2008, KPMG LLP initiated an audit
of Blanca in connection with Blanca’s receipt of USF
high-cost program support. Thereafter, the OIG issued
five administrative subpoenas for, among other things,
reports, filings, and correspondence that Blanca filed
with NECA and USAC regarding USF high-cost support.
On August 24, 2012, NECA initiated a “Loop” and
“Non-Reg Review” focused on the underlying records
for Blanca’s 2011 Cost Study in the area of non-regulated
operations. NECA undertook the Loop review to provide assurance the loop counts used for the 2012-1 USF
filing (December 2011 loops) were properly counted
and categorized in accordance with FCC rules. NECA
provided Blanca with questionnaires to which Blanca
responded. NECA also conducted an on-site investigation of Blanca’s headquarters in Alamosa, CO. Based on
Blanca’s submission and NECA’s on-site inspection,
NECA issued a report on January 29, 2013, which

App. 95
concluded Blanca impermissibly received USF highcost support because its claims for support included
costs and facilities for a mobile wireless system.
NECA required Blanca to substantially and materially revise its high-cost support filings beginning
with the 2011 Cost Study. In response, Blanca retained
Moss Adams to review and revise Blanca’s submissions.1 These revisions were required because Blanca
did not track or allocate expenses associated with
providing local service to customers over its landline
and cellular systems or the expenses associated with
providing service to customers of other carriers roaming on Blanca’s cellular system. Blanca operated these
cellular stations and its Local Exchange Carrier (LEC)
telephone company under a single management structure without allocating costs and expenses between
regulated and non-regulated services. In particular,
1

In addition to the Report’s other findings, and in the section
of NECA’s report titled “Review Findings Report,” NECA directed
Blanca to remove from the 2011 cost study all costs and revenues
associated with the wireless service, including but not limited to,
towers, Blanca’s ZTE wireless switch and radio equipment, including associated depreciation and expense, as well as ICLS,
LLS and the 2012-1 cost loop filings. Additionally, Blanca was directed to remove all access lines and pool revenue associated with
the wireless service from settlements for all months remaining in
the pooling window (minutes, lines, SLCs, ARCS (starting July
2012), FUSC and switched access revenue). Blanca was also directed to remove 146 loops associated with the wireless service
from the 2011 cost study, the 2012-1 high cost loop filing, and the
January 2012 pool reporting. Additionally, 149 loops were to be
removed from 2010 for cost study averaging. Blanca Telephone
Company, 28th Access Year Review, Review Findings Report,
January 28, 2013.

App. 96
Blanca characterized its cellular stations as Basic Exchange Telephone Relay Service (BETRS) facilities in
its CPRs, and by including all costs attributable to its
mobile cellular system in its cost studies, failed to comply with Parts 64, 36 and 69 of the FCC’s rules. The
inclusion in cost studies of such cellular investment,
expenses, and costs that were not used and useful to
provide regulated telephone service is prohibited, and
resulted in inflated disbursements to Blanca from
ICLS, LSS, High Cost Loop Support, and Safety Net
Additive Support.
In Blanca’s responses to the OIG subpoenas and
during NECA’s investigation, Blanca claimed it was
providing fixed wireless service, i.e., BETRS, for which
it was entitled to receive high-cost support as a LEC.
This was not the case. In particular, NECA determined
that Blanca was not providing BETRS, and instead
was providing only mobile cellular service throughout
its entire Eligible Telecommunications Carrier (ETC)
study area. As such, Blanca improperly included costs
and facilities attributable to non-regulated mobile cellular service, as well as wireless loop counts, in its cost
studies that served as the basis for filing for USF highcost funds. Although not addressed in NECA’s report,
Blanca’s claims for USF support were also based in
part on its costs to provide cellular services outside of
its designated LEC study area, as demonstrated by a
comparison of Blanca’s LEC and cellular operating areas, a review of Blanca’s billing records, and as confirmed by testimony provided during interviews of
Blanca personnel as discussed below. Blanca therefore

App. 97
received USF high-cost support to which it was not entitled as a LEC because it submitted claims for support
based upon the provision of mobile cellular service
both within and outside of its LEC study area.
By correspondence to you on January 28, 2013,
NECA directed Blanca to remove all costs attributable
to its wireless service and provide documentation of
the adjustments to NECA no later than February 22,
2012. Specifically, NECA directed Blanca to refile its
cost study for 2011, removing all costs attributable to
the wireless system, as well as revised Interstate Common Line Support (ICLS), Local Switching Support
(LSS), and the 2012-1 High Cost loop filings. Blanca
completed these revisions in a series of filings with
NECA and USAC, and the funds for USF high-cost
support for the post-2011 period have been recovered
through charge backs and recoupments. Any improperly received USF high-cost support for periods prior
to 2011 have not been recouped.
Findings
Since as early as 2003, Blanca has claimed reimbursement from the high-cost program for the costs of
providing telephone service as a rate of return, landline carrier. Blanca is authorized to provide landline
telephone service as a LEC in portions of Alamosa and
Costilla Counties, CO.2 As a rural LEC, and based on

2

Blanca was designated as an ETC by the Colorado Public
Utilities Commission on December 17, 1997, which entitled it to

App. 98
the services Blanca provided during the relevant period, the Company could be reimbursed from the highcost program for only the costs of providing regulated
local exchange service within its authorized ETC study
area. However, our investigation found that from at
least 2005, Blanca claimed all of the costs it incurred
to provide telephone service as a LEC were for landline
and fixed wireless service, i.e., BETRS, within its authorized study area even though Blanca was providing
only mobile cellular service. In other words, the conduct that led Blanca to repay USF high-cost support
payments after 2011 began as early as 2005. As such,
Blanca received improper payments from the USF
high-cost support program beginning in at least 2005.
A BETRS system, whatever the frequency utilized, must be dedicated to the end user and fixed at a
customer’s premises in order to qualify for high-cost
support as a regulated local exchange service.3 The definition of BETRS specifically excludes the provision of
cellular mobile telephone service as was provided by
receive federal universal service support in accordance with 47
U.S.C. § 254 and implementing regulations by the FCC.
3
“BETRS is provided so that radio loops can take the place
of (expensive) wire or cable to remote areas. It is intended to
be an extension of intrastate basic exchange service.” Basic Exchange Telecommunications Radio Service, Report and Order, 3
FCC Rcd. 214, 217 (1988). In the 1988 Order, the Commission
made clear that it intended “that wire and radio basic exchange
service [would] be treated similarly with regard to eligibility for
high cost assistance.” Id. at note 10. We also note that BETRS is
treated the same as landline basic exchange facilities and service,
rather than cellular or another mobile service, for purposes of the
FCC’s Uniform System of Accounts.

App. 99
Blanca.4 In so concluding, we find unavailing your argument that for the purposes of receiving high cost
support as an incumbent landline carrier, “the definition of ‘fixed’ includes wireless service that is provided
to a defined, limited geographic area where it can be
received by a device that is not nailed or screwed
down.”5
In particular, your argument misreads NECA’s
Paper 4.9, Use of Wireless Technology to Provide Regulated Local Exchange Service (“NECA Paper”) as applied to Blanca’s cellular system. There is nothing
in the FCC’s regulations or precedents, or in the
4

The Commission recognized the use of cellular frequencies
on a fixed basis to provide BETRS was appropriate and “in the
public interest since it is intended to be an extension of basic exchange service in areas where there is inadequate or no basic exchange telephone service offered.” In the Matter of Amendment
of Parts 2 and 22 of the Commission’s Rules to Permit Liberalization of Technology and Auxiliary Service Offerings in the Domestic Public Cellular Radio Telecommunications Service in
GEN. Docket No. 87-390, 3 FCC Rcd. 7033 (1988); Reconsideration Granted in Part by In the Matter of Amendment of Parts 2
and 22 of the Commission’s Rules to Permit Liberalization of Technology and Auxiliary Service Offerings in the Domestic Public Cellular Radio Telecommunications Service, 5 FCC Rcd. 1138 (1990)
(BETRS is a radio service that can be used to provide local exchange service in rural areas. It has no specified technology, but
involves the use of mobile frequencies in radio loops between a
basic exchange telephone subscriber and a telephone company
central office.). Id. at note 2.
5
Letter from Richard L. Tegtmeier, counsel for Blanca Telephone Company, dated October 30, 2015 in response to J. Chris
Larson, Assistant United States Attorney, letter of August 10,
2015 regarding 408 Rule of Evidence Settlement Communication
(“Settlement Letter”).

App. 100
Communications Act of 1934, as amended, (the “Act”)
to support Blanca’s position. Whether Blanca’s service is “mobile” or “fixed” is not determined based on
whether Blanca’s LEC customers’ signals are automatically handed off to other carriers in adjoining cellular
service areas, and the NECA Paper makes no such distinction. Nor does the NECA Paper suggest that “fixed
wireless’ service may provide for geographic mobility
to wireless subscribers within a broadcast area, as long
as this mobility is not as extensive as the ‘full’ mobility provided by mobile wireless services.”6 While the
NECA Paper notes that one of the characteristics of
new wireless technology is that the subscriber “may
have some degree of ‘portability’ within the broadcast
area,”7 the Paper in no way equates that “portability”
to a cellular company’s entire cellular service area.
Instead, the NECA Paper makes it clear, among
other requirements, that a wireless system must be
fixed, not mobile,8 in order to qualify for high cost support as a rate of return company and that the LEC’s
radio equipment at the customer site must be a fixed
radio station.9 While explaining that wireless technology can be an effective means to provide a supported
service to telephone customers where it is cost prohibitive or impractical over wireline facilities, NECA explicitly cautions its member companies that the costs
6
7
8
9

Settlement Letter at 2.
NECA Paper at 9.
Id. at n.11.
Id. at 10.

App. 101
for a system to provide mobile services are outside the
scope of Title II and cannot be reported to the NECA
pool or recognized in USF loop cost reporting,10 which
is exactly what Blanca did, contrary to NECA’s admonitions.
As noted below, Blanca customers purchase service
that allows them to use their cell phones throughout
Blanca’s cellular service area with handoff between
multiple Blanca cell sites. They also can continue to
use their phones by redialing and roaming on other cellular systems, and customers from other carriers have
the ability to roam on Blanca’s system when they make
or receive calls in Blanca’s cellular service area.11 Thus,
NECA’s conclusion in its January 29, 2013 report (the
“NECA Report”), that “[i]n order to include these costs
in further filings Blanca would need to provide a wireless service that is fixed to the customer location in

10

Id. at 10.
At one point Blanca conducted testing of its system because Verizon customers were having difficulty making and receiving calls within Blanca’s service area. Deposition of A. Wehe
in Cellular Network Inc. Corporation, individually and derivatively on behalf of Colorado 7-Saguache Limited Partnership vs.
Sand Dunes Cellular of Colorado Limited Partnership, Colorado
7-Saguache Limited Partnership (Nominal Defendant) and Cellco
Partnership and Comnet Cellular (Additional Counterclaim Defendants), Case No. 03CV4096, District Count, Arapahoe County,
Colorado, October 26, 2006, at 124. Wehe also provided oral testimony that Blanca obtained roaming revenue from other carriers
for their customers roaming on Blanca’s system. Id. at 211.
11

App. 102
accordance with the cost issue,12 was consistent with
the NECA Paper.
Our review of Blanca’s operations further makes
clear that Blanca was not providing BETRS or fixed
telephone service to its customers over its cellular facilities. Blanca operates pursuant to two mobile cellular licenses, KNKQ427 serving CMA356- Colorado 9 –
Costilla and KNKR288, serving CMA354 - Colorado 7
– Saguache, which provide mobile cellular service to
Blanca’s own customers as well as customers roaming
on its cellular system serving Costilla, Alamosa, and
Conejos Counties. Blanca provides mobile cellular service to customers via five cell sites which hand off to
each other.13 The nature of the cellular service Blanca
12

Cover letter to the NECA Report, at 1. This conclusion is
also consistent with the discussion of new wireless technologies
in the NECA Paper. While these new technologies allow for some
mobility within the range of their antennas, the operator can prevent mobile operations by fixing the receiver at the customer’s
location. (“Use of a permanently installed transceiver at the customer premises by the telephone company or by the customer can
be effective at disabling or significantly limiting any portable or
mobile capability of the radio system.”) Id. at 9. And, when the
NECA Paper referred to Commercial Mobile Radio Service
(CMRS) leased capacity to provide regulated exchange telephone
service by local exchange carriers, such as Blanca, NECA conditioned the service being fixed without regard to any “broadcast
area.” Id. at 8.
13
According to Keith Hazlett, a Blanca engineer, Blanca’s
cellular system had five cell sites which handed off to each other,
and there was no requirement to his knowledge that a cellular
customer be located at a fixed location. Oral testimony of Keith
Hazlett, Civil Investigative Demand, Tr., at 11. Blanca did not
have any restriction in its application for wireless service or on its
company website that a customer be located at a fixed location as

App. 103
provides and the scope of the stations’ operations are
documented in the series of applications Blanca filed
with the Commission, the FCC-issued authorizations
to provide cellular mobile service and by other representations made to the Commission.14
a condition of receiving cellular service. Alan Wehe also testified
that a customer could use his or her cellular phone to make a call
throughout Blanca’s cellular network as well as roam on other
carriers’ systems with which Blanca had a roaming agreement.
Oral testimony of Alan Wehe, Civil Investigative Demand, Tr. At
68-69.
14
That Blanca’s cellular system was designed and operated
to provide cellular mobile service to its customers and those traveling through Blanca’s cellular service area is evident from the
application filed for a new cellular station at Antonito, CO. On
November 20, 1995, Colorado RSA 7(B)(2) Limited Partnership
(the “Partnership”), filed an application seeking to construct a
new cellular system at Antonito. When the application was filed,
Blanca owned 50% of the Partnership and later acquired the remainder partnership interests on September 11, 2000. The Partnership represented the station, later licensed under call sign
KNKR288, would be operated in conjunction with Blanca’s adjacent cellular station KNKQ427, Costilla, CO. The application proposed to cover more than 50 square miles of unserved areas in
Conejos County in southeastern RSA No. 354B, and Costilla
County in southwestern RSA No. 2356B, which was outside of
Blanca’s study area. The application represented that the cellular
system would provide direct dial mobile and portable service to
the public. “The cellular system will be interconnected so that local customers and roamers are able to place and receive calls to
and from any telephone or terminal connected to the public
switched telephone network, and to and from networks on other
cellular or interconnected mobile systems. (Application, Exhibit
VI, Colorado RSA 7B(2) Limited Partnership, Antonito, Colorado.) The Service Proposal noted that “[c]ustomers with complaints relating to their mobile or portable unit will be able to take
it to the applicant’s service facility for repairs or call for a repairman to service it in the system’s service area where it is located.”

App. 104
Blanca has participated in Commission proceedings as a mobile cellular carrier in WT Docket No.
05-265. In a Petition for Reconsideration, Blanca described itself as a “wireline company . . . which expanded its operations to provide mobile wireless
service.”15 As Blanca explained, it was having difficulty
obtaining roaming agreements for voice and data services from national wireless carriers so it could provide
seamless coverage for its customers who traveled
outside of its service areas. Consistent with Blanca’s
representations in its Reconsideration Petition, records obtained from Blanca demonstrate the Company
has negotiated dozens of roaming agreements. These
agreements provided Blanca with revenues from other
carriers’ customers roaming on its cellular system and
also enabled Blanca’s mobile cellular customers to
travel to other areas of the country and use their mobile cellular phones.
Although during NECA’s investigation Blanca
professed to provide service to 146 customers who could
not receive landline service because “many of BTC’s customers lack[ed] access to commercial power,”16 Blanca’s
Exhibit VI, Service Proposal, at 2. The application proposed to use
Blanca’s cellular switch (Station KNQ427) and represented that
the switching expenses would therefore be nominal. Exhibit IX,
Construction Costs & First Year Operating Expenses. Blanca represented it “[had] the ability to construct and to operate the proposed system.” Id.
15
Petition for Reconsideration filed by Blanca Telephone
Company in WT Docket No 05-265, at 1 (June 6, 2011).
16
NECA Report, Wireless Service Section at 1. Blanca also
claimed that “[t]he Blanca Telephone Company has been using

App. 105
operations as a cellular carrier were substantially
more extensive than the representations made in the
Settlement Letter that wireless service was provided
to “remote” customers. Blanca provided its wireless
service to any customer who requested it, whether or
not the customer could receive wireline service or was
located within an area where there was a source of
electrical power, as Blanca represented to NECA. And,
Blanca proactively upgraded its system and coordinated with other operators in the area to enable system handoff.17

wireless technology since 1982 to provide basic service to approximately 150 customers in an unserved area (there are no land-line
facilities available due to not being feasible and the installation
would be cost prohibitive) and the area is sparsely populated.” Response of A. Wehe to OIG Subpoena dated October 23, 2012, Questions 26 & 27.
17
In this regard, Blanca also took measures to ensure that
its cellular system would be compatible with other systems.
Blanca installed Evolution Data Only (EVDO) equipment for its
cellular system in 2007, which Blanca described as “BETRS
EVDO” in its cumulative property record (CPR), to add at its five
cell sites. Blanca coordinated installation of the EVDO equipment
with the adjoining cellular system in which Wehe and Verizon
Wireless hold ownership interests. “Verizon Wireless suggests
that Blanca move to a 41 channel spacing configuration to enable
inter-system hand-off. If you have any questions, let us know.
Please reply with your concurrence to the plan above and dates
for implementation.” (Email from M. Sandoval, Director-System
Performance, Mountain Region, Verizon Wireless to T. Welch,
Blanca’s FCC counsel; cc to A. Wehe, and L. Stevens, D. Sisneros,
and M. Skelton of Verizon Wireless, dated July 5, 2007.)

App. 106
Additionally, Blanca claimed USF high-cost support to provide service outside of its study area.18 Section 214(e)(5) of the Act defines a service area as a
geographic area established by a state commission for
the purpose of determining universal service obligations and support mechanisms. In the case of a service
area served by a rural telephone company, service area
means a company’s “study area.” Only two of Blanca’s
cellular towers are located within Blanca’s study
area.19 As a LEC, Blanca did not have authority to
claim high-cost support for any costs to provide service
for any of its cellular customers served outside of its
study area or for customers of other cellular carriers
roaming on Blanca’s cellular system. Any costs and expenses attributable to such cellular services were disallowed.
As discussed above, NECA determined, and we
agree, that the costs and line counts Blanca was utilizing to claim high-cost support were attributable to
Blanca’s non-regulated cellular operations, rather than
to a BETRS fixed service and were therefore not entitled to High-Cost support. NECA’s investigation resulted in the recoupment of USF high-cost support
18

Blanca provided cellular service to customers outside of
Blanca’s LEC study area. For example, a review of billing records
provided by Blanca reflects that customers received what it called
its BETRS service in the city of Alamosa, outside of Blanca’s LEC
study area, as well as in areas in which Blanca was not authorized
to provide telephone service as a LEC. Response of A. Wehe to
OIG Subpoena dated November 12, 2009, Question 24.
19
Fort Garland KNKQ427 Location 1 and Blanca KNKQ427
Location 4 are situated within Blanca’s authorized study area.

App. 107
only after 2011, which is only a small portion of the
period during which Blanca improperly received these
funds. Based on a review of Blanca’s books and records
obtained during the OIG investigation and Blanca’s
own revision of its cost study and other filings for the
post 2011 period, we have determined Blanca owes the
Fund an additional $6,748,280 (the “Debt”). Further
details of the Debt may be found on Attachment A
hereto.
Accordingly, this letter has notified you of the Debt
and it demands payment, in full, and without further
demand, in accordance with the Notice Information
provided below and Payment Instructions at Attachment B. Furthermore, you are notified that the Commission may reduce the Debt by:
(1) Making a recoupment or offset20 against
other requests for claims for USF minutes
of use,
(2) Withholding payments otherwise due to
Blanca, and
(3) Other action permitted by law.

20

An offset or recoupment means when any high-cost claim
payment is due to you, the money will first be applied to any open
debt followed by the pay out of any remaining balance. Such offset
or recoupment does not stop interest, penalties, or other collection
charges from accruing under 31 U.S.C. § 3717 and 31 C.F.R.
§ 901.9.

App. 108
Important Notice Information
The following provides notification of procedures
and information required by the Debt Collection Improvement Act of 1996.21 The Debt is owed to the
United States. It is payable (the date of this letter is
the Due Date) immediately, in full and without further
demand. The Commission may apply any amount of
undisbursed USF payments for minutes of use to offset
or recoup the Debt.22 Any portion of the Debt unpaid at
the end of the Due Date is Delinquent on that date
(“Date of Delinquency”) and administrative charges,23
interest, and penalties will accrue thereafter.24 The
amount of interest that accrues25 from the Date of Delinquency and the administrative charges are waived
if the complete amount of the Debt is paid within 30
days of the Due Date.26 Additionally, a penalty of six
percent per annum accrues from the Date of Delinquency on any portion of the Debt that remains unpaid 90 days after the Due Date.27 Furthermore, the
21

See 31 U.S.C. §§ 3716, et seq.; 47 C.F.R. §§ 1.1911 and
1.1901, et seq.
22
United States v. Munsey Trust Co., 332 U.S. 234, 239, 108
S.Ct. 1599, 91 L.Ed. 2022 (1947) (“The government has the same
right ‘which belongs to every creditor, to apply the unappropriated moneys of his debtor, in his hands, in extinguishment of the
debts due him.’ ”).
23
47 C.F.R. § 1.1940(c).
24
Public Law 104-134, 110 Stat. 1321, 1358 Apr. 26, 1996).
See also 31 C.F.R. § 900.1, et seq.; 47 C.F.R. § 1.1901, et seq.
25
31 U.S.C. § 3717(a)-(c).
26
31 U.S.C. § 3717(d) and 47 C.F.R. § 1.1940(g).
27
31 U.S.C. § 3717(e)(2).

App. 109
Commission may refer a delinquent Debt to the United
States Treasury or the Department of Justice for further collection action.28 The United States Treasury
will impose an additional administrative collection
charge,29 and it may commence administrative offset.30
An additional surcharge may be imposed in connection
with certain judicial actions to recover judgment.31
If you have evidence establishing that you do not
owe the Debt, or if you have further verified evidence
to substantiate your entitlement to receive payment
for the disallowed USF payments, provide such evidence to the Commission within 14 days of the Due
Date. Because our determination is based on the information you either provided or were unable to provide,
there is no apparent reason for you to inspect and copy
those same records. Finally, you may request the opportunity to repay the debt under the terms of a written agreement; however, such request must be made
with 14 days of the date of this notice, and you must
execute the Commission’s form of the agreement
within thirty days of the date of this notice.
This letter is sent by overnight delivery service
and by e-mail.

28

31 U.S.C. §§ 3711(g); 3716; 28 U.S.C. § 3001, et seq.; 47
C.F.R. § 1.1912.
29
31 U.S.C. § 3717(e); 31 C.F.R. § 285.12( j).
30
31 U.S.C. § 3716.
31
8 U.S.C. § 3011.

App. 110
The points of contact on this letter are Neil Dellar,
who may be reached at (202) 418-8214 and Thomas
Buckley, who can be reached at (202) 418-0725.
Sincerely,
/s/ Dana Shaffer
Dana Shaffer
Deputy Managing Director
Copies:
Jonathan Sallet – General Counsel
Richard L. Tegtmeier, Esq.
Enclosures: Attachments A & B

App. 111
Attachment A

FUND

HCL

LSS

ICLS

(1)
(2)
(3)=(1)-(2)

BLANCA TELEPHONE COMPANY: HIGH COST ANALYSIS
HIGH COST SUPPORT 2005 - 2010
SUPPORT PAID VS. CORRECTED SUPPORT
YEAR
SCENARIO
2005
2006
2007
2008
2009
$802,620
$787,644
$751,512
$837,624
$860,916
Support Actually Paid
Government Calculation $575,225
$595,364
$628,352
$729,442
$709,817
Difference
$227,395
$192,280
$123,160
$108,182
$70,099

(4)
(5)
(6)=(4)-(5)

Support Actually Paid
Government Calculation
Difference

$946,136
$116,660
$829,476

$868,296
$150,261
$718,035

$954,312
$170,321
$783,991

$983,088
$171,884
$811,204

$832,868
$166,471
$766,397

$696,891
$225,558
$471,333

$5,381,591 USAC Disbursement Records
$1,001,155 Gov’t. Study Calculations
$4,380,436

(7)
(8)
(9)=(7)-(8)

Support Actually Paid
Government Calculation
Difference

$437,352
$235,616
$201,736

$421,224
$217,450
$203,774

$472,206
$275,442
$196,764

$520,236
$297,493
$222,743

$545,652
$308,808
$236,844

$593,280
$323,503
$269,777

$2,989,950 USAC Disbursement Records
$1,658,312 Gov’t. Study Calculations
$1,331,638

ROW

(10)
Support Actually Paid
$19,164
$19,164
$19,164
$19,164
$12,444
SNA
(11)
Government Calculation
$0
$0
$0
$0
$0
(12)=(10)-(11)
Difference
$19,164
$19,164
$19,164
$19,164
$12,444
TOTAL (3)+(6)+(9)+(12) Total Overpayment $1,277,771 $1,133,253 $1,123,079 $1,161,293 $1,085,784

(USAC Confidential - Contains Investigatory Information)

TOTAL

2010
$993,096
$779,550
$213,546

$5,033,412 USAC Disbursement Records
$4,098,750 Gov’t. Study Calculations
$934,662

$12,444
$101,544 USAC Disbursement Records
$0
$0 Totally Unregulated
$12,444
$101,544
$967,100 $6,748,280

App. 112
ATTACHMENT B
Payment Instructions
The following information is being provided to assist
you in making your payment.
All payments must be made in U.S. currency in the
form of a wire transfer. No personal checks, cashier’s
checks or other forms of payment will be accepted. Payment should be wired, pursuant to the following instructions:
ABA Routing Number: 021030004
Receiving Bank: TREAS NYC
33 Liberty Street
New York, NY 10045
ACCOUNT NAME: FCC
ACCOUNT NUMBER: 27000001
OBI Field: USF – High Cost Program
APPLICANT FRN:

(Blanca Telephone Company)

DEBTOR NAME: (same as FCC Form 159, Block 2)
LOCKBOX NO.: #979088
Please fax a completed remittance advice (Form 159)
to U.S. Bank, St. Louis, Missouri at (314) 418-4232 at
least one hour before initiating the wire transfer (but
on the same business day).

App. 113
For questions regarding the submission of payment, contact Gail Glasser, Office of the Managing Director, Financial Operations, at (202) 418-0578.

App. 114
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-------------------------------------------------------------------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
No. 18-9587
(FCC No. FCC 17-162)
v.
(Federal
FEDERAL COMMUNICATIONS
Communications
COMMISSION; UNITED
Commission)
STATES OF AMERICA,
Petitioner,

Respondents.
-------------------------------------------------------------------------------------------------------------------------------

ORDER
-------------------------------------------------------------------------------------------------------------------------------

(Filed Apr. 30, 2019)
Before HOLMES, MATHESON, and BACHARACH,
Circuit Judges.
-------------------------------------------------------------------------------------------------------------------------------

This matter is before the court on petitioner Blanca
Telephone Company’s Petition for Rehearing and Rehearing En Banc.
The court denies the petition for panel rehearing.
The petition for rehearing en banc was transmitted to all judges of the court who are in regular active
service. As no member of the panel and no judge in regular active service on the court requested that the

App. 115
court be polled, the court also denies the petition for
rehearing en banc.
Entered for the Court
ELISABETH A. SHUMAKER,
Clerk
/s/ Lisa A. Lee
by: Lisa A. Lee
Counsel to the Clerk

App. 116
47 U.S.C. § 503. Forfeitures
(a) Rebates and offsets. Any person who shall deliver
messages for interstate or foreign transmission to any
carrier, or for whom as sender or receiver, any such carrier shall transmit any interstate or foreign wire or radio communication, who shall knowingly by employee,
agent, officer, or otherwise, directly or indirectly, by or
through any means or device whatsoever, receive or accept from such common carrier any sum of money or
any other valuable consideration as a rebate or offset
against the regular charges for transmission of such
messages as fixed by the schedules of charges provided
for in this Act, shall in addition to any other penalty
provided by this Act forfeit to the United States a sum
of money three times the value of any other consideration so received or accepted, to be ascertained by the
trial court; and in the trial of said action all such rebates or other considerations so received or accepted
for a period of six years prior to the commencement of
the action, may be included therein, and the amount
recovered shall be three times the total amount of
money, or three times the total value of such consideration, so received or accepted, or both, as the case may
be.
(b) Activities constituting violations authorizing imposition of forfeiture penalty; amount of penalty; procedures applicable; persons subject to penalty; liability
exemption period.
(1) Any person who is determined by the Commission, in accordance with paragraph (3) or (4) of
this subsection, to have—

App. 117
(A) willfully or repeatedly failed to comply
substantially with the terms and conditions of
any license, permit, certificate, or other instrument or authorization issued by the Commission;
(B) willfully or repeatedly failed to comply
with any of the provisions of this Act or of any
rule, regulation, or order issued by the Commission under this Act or under any treaty,
convention, or other agreement to which the
United States is a party and which is binding
upon the United States;
(C) violated any provision of section 317(c)
or 508(a) of this Act [47 USCS § 317(c) or
509(a)]; or
(D) violated any provision of section 1304,
1343, 1464, or 2252 of title 18, United States
Code [18 USCS § 1304, 1343, 1464, or 2252];
shall be liable to the United States for a forfeiture
penalty. A forfeiture penalty under this subsection
shall be in addition to any other penalty provided
for by this Act; except that this subsection shall
not apply to any conduct which is subject to forfeiture under title II, part II or III of title III, or section 506 of this Act [47 USCS §§ 201 et seq., 351 et
seq., 381 et seq., or 507].
(2) (A) If the violator is (i) a broadcast station
licensee or permittee, (ii) a cable television operator, or (iii) an applicant for any broadcast
or cable television operator license, permit,
certificate, or other instrument or authorization issued by the Commission, the amount of

App. 118
any forfeiture penalty determined under this
section shall not exceed $ 25,000 for each violation or each day of a continuing violation,
except that the amount assessed for any continuing violation shall not exceed a total of
$ 250,000 for any single act or failure to act
described in paragraph (1) of this subsection.
(B) If the violator is a common carrier subject to the provisions of this Act or an applicant for any common carrier license, permit,
certificate, or other instrument of authorization issued by the Commission, the amount of
any forfeiture penalty determined under this
subsection shall not exceed $ 100,000 for each
violation or each day of a continuing violation,
except that the amount assessed for any continuing violation shall not exceed a total of
$ 1,000,000 for any single act or failure to act
described in paragraph (1) of this subsection.
(C) Notwithstanding subparagraph (A), if
the violator is –
(i)(I) a broadcast station licensee or permittee; or (II) an applicant for any broadcast license, permit, certificate, or other
instrument or authorization issued by
the Commission; and
(ii) determined by the Commission under paragraph (1) to have broadcast obscene, indecent, or profane language, the
amount of any forfeiture penalty determined under this subsection shall not exceed $ 325,000 for each violation or each
day of a continuing violation, except that

App. 119
the amount assessed for any continuing
violation shall not exceed a total of
$ 3,000,000 for any single act or failure to
act.
(D) In any case not covered in subparagraph
(A), (B), or (C), the amount of any forfeiture
penalty determined under this subsection
shall not exceed $ 10,000 for each violation or
each day of a continuing violation, except that
the amount assessed for any continuing violation shall not exceed a total of $ 75,000 for any
single act or failure to act described in paragraph (1) of this subsection.
(E) The amount of such forfeiture penalty
shall be assessed by the Commission, or its designee, by written notice. In determining the
amount of such a forfeiture penalty, the Commission or its designee shall take into account
the nature, circumstances, extent, and gravity
of the violation and, with respect to the violator, the degree of culpability, any history of
prior offenses, ability to pay, and such other
matters as justice may require.
(F) Subject to paragraph (5) of this section,
if the violator is a manufacturer or service
provider subject to the requirements of section 255, 716, or 718 [47 USCS § 255, 617, or
619], and is determined by the Commission to
have violated any such requirement, the manufacturer or provider shall be liable to the
United States for a forfeiture penalty of not
more than $ 100,000 for each violation or each
day of a continuing violation, except that the

App. 120
amount assessed for any continuing violation
shall not exceed a total of $ 1,000,000 for any
single act or failure to act.
(3) (A) At the discretion of the Commission, a
forfeiture penalty may be determined against
a person under this subsection after notice
and an opportunity for a hearing before the
Commission or an administrative law judge
thereof in accordance with section 554 of title
5, United States Code. Any person against
whom a forfeiture penalty is determined under this paragraph may obtain review thereof
pursuant to section 402(a) [47 USCS
§ 402(a)].
(B) If any person fails to pay an assessment
of a forfeiture penalty determined under subparagraph (A) of this paragraph, after it has
become a final and unappealable order or after the appropriate court has entered final
judgment in favor of the Commission, the
Commission shall refer the matter to the Attorney General of the United States, who shall
recover the amount assessed in any appropriate district court of the United States. In such
action, the validity and appropriateness of the
final order imposing the forfeiture penalty
shall not be subject to review.
(4) Except as provided in paragraph (3) of this
subsection, no forfeiture penalty shall be imposed
under this subsection against any person unless
and until –

App. 121
(A) the Commission issues a notice of apparent liability, in writing, with respect to such
person;
(B) such notice has been received by such
person, or until the Commission has sent such
notice to the last known address of such person, by registered or certified mail; and
(C) such person is granted an opportunity to
show, in writing, within such reasonable period of time as the Commission prescribes by
rule or regulation, why no such forfeiture penalty should be imposed.
Such a notice shall (i) identify each specific
provision, term, and condition of any Act, rule,
regulation, order, treaty, convention, or other
agreement, license, permit, certificate, instrument, or authorization which such person apparently violated or with which such person
apparently failed to comply; (ii) set forth the
nature of the act or omission charged against
such person and the facts upon which such
charge is based; and (iii) state the date on
which such conduct occurred. Any forfeiture
penalty determined under this paragraph
shall be recoverable pursuant to section
504(a) of this Act [47 USCS § 504(a)].
(5) No forfeiture liability shall be determined under this subsection against any person, if such person does not hold a license, permit, certificate, or
other authorization issued by the Commission,
and if such person is not an applicant for a license,
permit, certificate, or other authorization issued
by the Commission, unless, prior to the notice

App. 122
required by paragraph (3) of this subsection or the
notice of apparent liability required by paragraph
(4) of this subsection, such person (A) is sent a citation of the violation charged; (B) is given a reasonable opportunity for a personal interview with
an official of the Commission, at the field office of
the Commission which is nearest to such person’s
place of residence; and (C) subsequently engages
in conduct of the type described in such citation.
The provisions of this paragraph shall not apply,
however, if the person involved is engaging in activities for which a license, permit, certificate, or
other authorization is required, or is a cable television system operator, if the person involved is
transmitting on frequencies assigned for use in a
service in which individual station operation is authorized by rule pursuant to section 307(e) [47
USCS § 307(e)], or in the case of violations of section 303(q) [47 USCS § 303(q)], if the person involved is a nonlicensee tower owner who has
previously received notice of the obligations imposed by section 303(q) [47 USCS § 303(q)] from
the Commission or the permittee or licensee who
uses that tower. Whenever the requirements of
this paragraph are satisfied with respect to a particular person, such person shall not be entitled to
receive any additional citation of the violation
charged, with respect to any conduct of the type
described in the citation sent under this paragraph.
(6) No forfeiture penalty shall be determined or
imposed against any person under this subsection
if—

App. 123
(A) such person holds a broadcast station license issued under title III of this Act [47
USCS §§ 301 et seq.] and if the violation
charged occurred—
(i) more than 1 year prior to the date of issuance of the required notice or notice of apparent liability; or (ii) prior to the date of
commencement of the current term of such license, whichever is earlier; or
(B) such person does not hold a broadcast station license issued under title III of this Act
[47 USCS §§ 301 et seq.] and if the violation
charged occurred more than 1 year prior to
the date of issuance of the required notice or
notice of apparent liability.
For purposes of this paragraph, “date of commencement of the current term of such license” means the date of commencement of
the last term of license for which the licensee
has been granted a license by the Commission. A separate license term shall not be
deemed to have commenced as a result of continuing a license in effect under section 307(c)
[47 USCS § 307(c)] pending decision on an application for renewal of the license.

47 C.F.R. § 1.1910 Effect of insufficient fee payments, delinquent debts, or debarment.
(a) (1) An application (including a petition for reconsideration or any application for review of a fee determination) or request for authorization subject

App. 124
to the FCC Registration Number (FRN) requirement set forth in subpart W of this chapter will be
examined to determine if the applicant has paid
the appropriate application fee, appropriate regulatory fees, is delinquent in its debts owed the
Commission, or is debarred from receiving Federal
benefits (see, e.g., 31 CFR 285.13; 47 CFR part 1,
subpart P).
(2) Fee payments, delinquent debt, and debarment will be examined based on the entity’s taxpayer identifying number (TIN), supplied when
the entity acquired or was assigned an FRN. See
47 CFR 1.8002(b)(1).
(b) (1) Applications by any entity found not to have
paid the proper application or regulatory fee will
be handled pursuant to the rules set forth in 47
CFR part 1, subpart G.
(2) Action will be withheld on applications, including on a petition for reconsideration or any application for review of a fee determination, or
requests for authorization by any entity found to
be delinquent in its debt to the Commission (see
§ 1.1901(i)), unless otherwise provided for in this
regulation, e.g., 47 CFR 1.1928 (employee petition
for a hearing). The entity will be informed that action will be withheld on the application until full
payment or arrangement to pay any non-tax delinquent debt owed to the Commission is made
and/or that the application may be dismissed. See
the provisions of §§ 1.1108, 1.1109, 1.1116, and
1.1118. Any Commission action taken prior to the
payment of delinquent non-tax debt owed to the
Commission is contingent and subject to

App. 125
rescission. Failure to make payment on any delinquent debt is subject to collection of the debt, including interest thereon, any associated penalties,
and the full cost of collection to the Federal government pursuant to the provisions of the Debt
Collection Improvement Act, 31 U.S.C. 3717.
(3) If a delinquency has not been paid or the
debtor has not made other satisfactory arrangements within 30 days of the date of the notice provided pursuant to paragraph (b)(2) of this section,
the application or request for authorization will be
dismissed.
(i) The provisions of paragraphs (b)(2) and
(b)(3) of this section will not apply if the applicant has timely filed a challenge through an
administrative appeal or a contested judicial
proceeding either to the existence or amount
of the non-tax delinquent debt owed the Commission.
(ii) The provisions of paragraphs (b)(2) and
(b)(3) of this section will not apply where more
restrictive rules govern treatment of delinquent debtors, such as 47 CFR 1.2105(a)(2)(xi)
and (xii).
(c) (1) Applications for emergency or special temporary authority involving safety of life or property
(including national security emergencies) or involving a brief transition period facilitating continuity of service to a substantial number of
customers or end users, will not be subject to the
provisions of paragraphs (a) and (b) of this section.
However, paragraphs (a) and (b) will be applied to
permanent authorizations for these services.

App. 126
(2) The provisions of paragraphs (a) and (b) of
this section will not apply to applications or requests for authorization to which 11 U.S.C. 525(a)
is applicable.

